<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     

                          [H.A.S.C. No. 116-4]

                      MILITARY SERVICE ACADEMIES'

                      ACTION PLANS TO ADDRESS THE

                       RESULTS OF SEXUAL ASSAULT

                       AND VIOLENCE REPORT AT THE

                       MILITARY SERVICE ACADEMIES

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 13, 2019

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-337                     WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                                   
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                 JACKIE SPEIER, California, Chairwoman

SUSAN A. DAVIS, California           TRENT KELLY, Mississippi
RUBEN GALLEGO, Arizona               RALPH LEE ABRAHAM, Louisiana
GILBERT RAY CISNEROS, Jr.,           LIZ CHENEY, Wyoming
    California, Vice Chair           PAUL MITCHELL, Michigan
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico         MATT GAETZ, Florida
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
                 Jamie Jackson, Deputy General Counsel
                          Dan Sennott, Counsel
                         Danielle Steitz, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Kelly, Hon. Trent, a Representative from Mississippi, Ranking 
  Member, Subcommittee on Military Personnel.....................     4
Speier, Hon. Jackie, a Representative from California, 
  Chairwoman, Subcommittee on Military Personnel.................     1

                               WITNESSES

Carter VADM Walter E., Jr., USN, Superintendent, United States 
  Naval Academy..................................................    30
Christensen, Col Don, USAF (Ret.), President, Protect Our 
  Defenders......................................................     5
Morris, COL Lawrence J., USA (Ret.), Chief of Staff, The Catholic 
  University of America..........................................     6
Silveria, Lt Gen Jay B., USAF, Superintendent, United States Air 
  Force Academy..................................................    31
Van Winkle, Dr. Elizabeth P., Executive Director, Office of Force 
  Resiliency, Office of the Under Secretary of Defense for 
  Personnel and Readiness........................................    26
Williams, LTG Darryl A., USA, Superintendent, United States 
  Military Academy...............................................    28

                                APPENDIX

Prepared Statements:

    Carter VADM Walter E., Jr....................................    89
    Christensen, Col Don.........................................    60
    Morris, COL Lawrence J.......................................    64
    Silveria, Lt Gen Jay B.......................................   100
    Speier, Hon. Jackie..........................................    57
    Van Winkle, Dr. Elizabeth P..................................    68
    Williams, LTG Darryl A.......................................    74

Documents Submitted for the Record:

    Air Force Academy email submitted by Ms. Speier..............   123

Witness Responses to Questions Asked During the Hearing:

    Dr. Abraham..................................................   127

Questions Submitted by Members Post Hearing:

    Mr. Bergman..................................................   134
    Ms. Escobar..................................................   132
    Ms. Speier...................................................   131
    
    
                MILITARY SERVICE ACADEMIES' ACTION PLANS

                TO ADDRESS THE RESULTS OF SEXUAL ASSAULT

                  AND VIOLENCE REPORT AT THE MILITARY

                           SERVICE ACADEMIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                      Washington, DC, Wednesday, February 13, 2019.
    The subcommittee met, pursuant to call, at 2:13 p.m., in 
room 2212, Rayburn House Office Building, Hon. Jackie Speier 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. Welcome, everyone. We are somewhat late in 
starting this hearing because all the women of the House and 
Senate take a picture every year to draw attention to women's 
heart health, and that is why we are all dressed in red today. 
So if you see members who are of the distaff version coming in, 
that is because that picture is still being taken right now.
    But I think, without any objection, we will start with them 
in absentia, and move forward. So this meeting will come to 
order. My name is Jackie Speier, I am the chair of the 
Subcommittee on Military Personnel, and I welcome all of you 
who are here today, those who are witnesses, and those as 
members of the audience.
    I was profoundly disturbed when I read the Annual Report on 
Sexual Harassment and Violence at the Military Service 
Academies. The results show that after a decade-plus of 
concerted efforts to address sexual harassment and assault, the 
problem has only grown worse. I believe we all appreciate how 
alarming these numbers are. I cannot stress enough that this 
survey is among the best measures of the prevalence of unwanted 
sexual contact and harassment at any university, company, or 
organization.
    The survey has been administered for over a decade with the 
same questions and an expert-approved measurement. Sixty-eight 
percent of the students participated. This isn't a blip, a 
#MeToo bump, or some accident. It is a clear illustration of a 
destructive trend and a systemic problem.
    The report says that in 4 years, occurrences of unwanted 
sexual contact increased from 327 to 747, more than doubling 
the number of sexual assaults at the military academies. Now, 
the term ``unwanted sexual contact'' is being defined in the 
survey by asking very specific questions, which I am going to 
read now, lest any of us think that this is some mild tap on 
the buttocks.
    The questions are: Sexually touched--the question is: 
Unwanted sexual contact behavior. Sexually touched you, for 
example, intentionally touching of genitalia, buttocks, breasts 
if you are a woman, or made you sexually touch them. Attempted 
to make you have sexual intercourse but was not successful. 
Made you have sexual intercourse. Attempted to make you perform 
or receive oral sex, anal sex, or penetration by a finger or 
object, but was not successful. Made you perform or receive 
oral sex, anal sex, or penetration by a finger or object.
    Those were the questions asked and the answers to those in 
questions doubled from 327 to 747. What makes this even more 
disturbing is that the number of reported sexual assaults 
occurring at the academies remained stagnant. That means the 
numbers went up dramatically, but the numbers who actually 
reported stayed the same.
    Only 12 percent of assaulted individuals formally reported. 
So we have to ask the question: Why is it that only 12 percent 
of those who have been sexually assaulted, in the terms that I 
have just spoken, did not come forward? Low report should be no 
surprise given that half of those who did report were 
retaliated against.
    Thirty-seven percent of those who reported experienced 
social ostracism, reflecting a culture defined by victim-
blaming. Out of these 747-plus assaults and 69 unrestricted 
reports, the academies only convicted 4 perpetrators. Victims 
report at their own peril. That is the message that is being 
sent, because they are more likely to face consequences than 
their perpetrators.
    The case of Ariana Ballard and Stephanie Gross, former West 
Point students who are presently--who had previously appeared 
before this subcommittee, demonstrate the problem. Ariana, a 
top swimming recruit was ostracized by her peers when she 
reported that fellow swim team members had sexually harassed 
her as a freshman. So who was punished? She was. She had to 
train alone.
    Stephanie was violently raped the same year, and an 
investigation found insufficient evidence to bring charges 
against her rapist. After Stephanie was raped again, she 
considered not reporting, fearing that, again, no one would 
believe her. Stephanie reported anyway and her attacker was 
convicted of assault, but not sexual assault.
    Stephanie and Ariana faced mounting retaliation in the form 
of mental fitness and drug tests until they chose to leave the 
academy. This type of treatment for the brave few that do 
report deters the rest. Meanwhile, half of all women at the 
academies reported being pervasively or severely sexually 
harassed in the 2017-2018 academic year.
    Think about that for a minute. One-half of the women cadets 
and midshipmen reported being sexually harassed. That is 1,622 
future officers who start their careers being harassed by their 
peers. None of them reported formally, not one. Sex harassment 
can be a precursor to assault. We need to appreciate that.
    The survey also found that only 56 percent of the cadets 
and midshipmen think their peer leaders make honest and 
reasonable efforts to stop assault. So if the peer leaders are 
not people you can trust, it shouldn't surprise us that they 
are not reporting.
    And despite the Department touting relatively high trust in 
uniformed leadership, that number of 70 percent is worse than 
it was 2 years ago. To live, study, and learn in an environment 
where harassment is so pervasive, expected, and accepted, that 
half of all women are harassed and none report is a stunning 
rebuke in the confidence of the system and a stunning example 
of perseverance by the young women.
    My colleagues and I have had the privilege to appoint high 
school seniors for admission to the academies. That is one of 
the great privileges we have as Members of Congress. They are 
consistently among the best, brightest, and most accomplished 
young people in our communities. They are earnest, respectful, 
and dedicated, and then they go away to school and we get this. 
I wonder if we are missing something when we recommend them, if 
we should be looking more closely at their moral fitness, or if 
the culture at these schools is that corrupting. Perhaps it is 
a little bit of both.
    I do know this: Three out of the four high school seniors 
that I recommended for admission this year are women. Women 
will continue to attend the academies and serve our country. 
All three academies' freshman class have at least 24 percent. 
And I understand that next year, the numbers will grow. So the 
number of women coming to the academies is only going to grow, 
and that is why it is essential that we fix this problem.
    These results don't call for tweaks and adjustments. The 
superintendents have been touting incremental fixes made after 
this survey were administered, but there is no reason we should 
expect adjustments to change the overall trend. This report is 
a scathing indictment of the academies' culture. We need to 
expand our toolbox and use both carrots and sticks to hold 
perpetrators accountable, and to deter others through serious 
repercussions.
    Academy leaders must promote a strong culture of dignity, 
respect, educate students on right and wrong, and have zero 
tolerance for violations. The superintendents have said they 
are doing much of this, but the problem has gotten worse. 
Leaders must earn students' trust by making good on promises to 
impose severe penalties on predators. They must treat survivors 
uniformly, modeling best practices from other academies. And 
they must address the issues that stem from over 25 percent of 
the students self-identifying as being problematic drinkers.
    I guess my message really is quite simple. I am putting the 
academies on notice. We are putting all of you in the situation 
where it is time for us to recognize that this is a crisis, and 
I intend to watch it like a hawk. You know, it is time for us 
to elevate the brave women, and some men, who come forward, and 
knowing full well that retaliation is likely, and instead, take 
the kinds of actions against perpetrators that will finally rid 
us of this rot.
    Today we have two panels. During the first panel we will 
have the opportunity to hear from outside experts who have 
dedicated their careers to these sensitive issues. During the 
second panel, the Department of Defense and the superintendents 
of our military service academies will explain why their 
current approach to this problem have failed, and how we can 
rethink our approaches to sexual violence at our academies.
    I look forward to hearing from all of you today. But before 
I introduce our first panel, let me offer Ranking Member Kelly 
an opportunity to make some opening remarks.
    [The prepared statement of Ms. Speier can be found in the 
Appendix on page 57.]

     STATEMENT OF HON. TRENT KELLY, A REPRESENTATIVE FROM 
     MISSISSIPPI, RANKING MEMBER, SUBCOMMITTEE ON MILITARY 
                           PERSONNEL.

    Mr. Kelly. Thank you to the Chair. First, I want to 
congratulate Representative Speier on becoming the chairwoman 
of this very important subcommittee on the very important Armed 
Services Committee. I want to welcome our fellow members of the 
subcommittee on both sides. I look forward to working with each 
of you on all the issues impacting our service members and 
their families.
    I also am very troubled by the results of this year's 
Annual Report on Sexual Harassment and Violence at the Military 
Service Academies. Just as the nation continues to struggle 
with an increase in sexual violence, it is clear that the 
military and our service academies are not immune from this 
crisis. Every cadet and midshipman is told from day one that 
they must rely on each other in order to succeed at the 
academy.
    The vast majority of cadets and midshipmen treat each other 
with dignity and respect and go on to distinguished careers in 
the military. However, when a cadet or midshipman preys on 
another through sexual assault or harassment, the betrayal is 
profound and shakes the institution to its core.
    These horrific crimes not only deeply impact the victim, 
they do wide-ranging damage to the entire academy and to our 
society as a whole. The academies have put enormous resources 
and attention towards improving sexual assault prevention and 
response; nonetheless, the problem seems to be getting worse. 
While this is a multifaceted and difficult issue, one thing is 
clear: The results of this survey are unacceptable, and the 
leadership of the military service academies must redouble 
their efforts in order to fix this immediately.
    Therefore, I look forward to hearing from both of our 
panels today about how to improve sexual assault prevention and 
response. I am particularly interested to hear from the 
superintendents about their plans to address this increase in 
prevalence. I am interested to hear more about the efforts to 
enhance preadmission screening in order to accurately identify 
candidates who have character issues that may preclude their 
admissions. I would also like to hear more about how the 
academies are improving prevention and intervention efforts to 
ensure they resonate with young cadets and midshipmen.
    Finally, as a former district attorney who has prosecuted 
sex crimes, I would like to learn more about how the academies 
use the judicial and administrative authorities they have to 
hold perpetrators accountable. One case of sexual assault, 
violence, or harassment is one too many. And one case of sexual 
assault that is not reported because of systemic problems is 
unacceptable.
    I want to hear how each of the service academies is 
proceeding to address this critical issue. With that, I look 
forward to hearing from both of our panels, and I yield back. 
Thank you, Ms. Speier.
    Ms. Speier. Thank you, Ranking Member Kelly. Each witness 
will have the opportunity to present his or her testimony, and 
each member will have an opportunity to question the witnesses 
for 5 minutes. We respectfully ask the witnesses to summarize 
their testimony in 5 minutes. Your written comments and 
statements will be made part of the record.
    So now we will welcome our first panel. First, Retired 
Colonel Don Christensen, United States Air Force, who is 
president of Protect our Defenders. And, second, Retired 
Colonel Lawrence Morris of the U.S. Army, Chief of Staff now to 
The Catholic University of America. Welcome to both of you.
    And, Colonel Christensen, you can begin.

   STATEMENT OF COL DON CHRISTENSEN, USAF (RET.), PRESIDENT, 
                     PROTECT OUR DEFENDERS

    Colonel Christensen. Chairwoman Speier and Ranking Member 
Kelly, thank you for the opportunity to appear before you on 
this vitally important topic for our nation's security. As a 
brief introduction, I retired after 23 years' service as an Air 
Force JAG [judge advocate general]. During that time, I served 
twice as a defense counsel, multiple times as a prosecutor, 
including as the chief prosecutor for Europe and Southwest 
Asia, and as the chief prosecutor for the United States Air 
Force. I have served as a trial judge, and I had been selected 
to serve as an appellate judge when I elected to retire.
    For the last 4 years I have been the president of Protect 
our Defenders, a human rights organization dedicated to 
advocating for victims of military sexual trauma. We provide 
attorneys free of charge, and I, myself, represent clients who 
are going through the often hostile military justice process. 
During this time, I have talked with hundreds of survivors, 
including those from all the service academies.
    As Congresswoman Speier has very succinctly and very 
correctly identified, there is a huge problem with sexual 
assault at the academies. The one thing that I really think 
needs to be brought to this committee's attention is these 
rates compared to the Active Duty force. Sixteen percent, just 
about 16 percent of the women at the academies are sexually 
assaulted. That is four times the rate of the Active Duty 
force. For men, 2.4 percent. That is three times the rate of 
the Active Duty force. These are sobering estimates, especially 
when we compare to the Active Duty force.
    Yet accountability for perpetrators is almost nonexistent. 
Last year, only four offenders were convicted at a court 
martial for their offenses, and a tiny handful were discharged. 
This should be a wake-up call for academy leadership. The 
failure to weed out perpetrators means that hundreds of sex 
offenders are commissioned into the Active Force every year. 
That should be very sobering. Every year, hundreds of sex 
offenders are commissioned into the Active Force.
    We can only imagine the impact this has on the military's 
ability to address sexual assault and harassment throughout the 
services. A service academy commission undoubtedly gives an 
officer an advantage for the competition for promotions, 
command, and ultimately the attainment of general and flag 
rank.
    The last three Chiefs of Staff of the Air Force and five of 
the last seven have been Air Force Academy grads. The current 
Chief of Naval Operations is a Naval Academy grad. The 
academies have an impact on the Active Force much greater than 
the actual numbers of their graduates. It is for this very 
reason that Congress, the President, and the American people 
must demand solutions to what is going on.
    However, I fear the reality of the rampant epidemic of 
sexual harassment and assault is not being accepted by 
leadership. I also fear that leadership does not understand the 
level of distrust that the survivors have of the chain of 
command. When I talked to academy survivors, the constant I 
hear is the fear of leadership: the fear that leadership won't 
believe them; the fear that leadership will not hold the 
offender accountable; the fear that leadership will drive them 
from the academies if they report, and the numbers bear witness 
to that.
    Thirty-one percent of the Air Force Academy women, and 32 
percent of the women at the Naval Academy, do not believe that 
senior leadership is making honest and reasonable efforts to 
stop sexual assault. Almost a third of the women attending 
those two institutions do not trust senior leadership. Is it 
any wonder that women are reluctant to report when they are 
more likely to be forced out of the academies and then end up 
paying hundreds of thousands of dollars in tuition than they 
are to see their perpetrator held accountable?
    Despite sexual assault being up 50 percent from 2 years, 
and over double from 4 years ago, report rates as a percentage 
have plummeted. Unrestricted reports, the kind of report that 
allows us to prosecute a case, are actually down to 8 percent; 
92 percent of the victims do not report in a way that can 
result in an investigation.
    We cannot solve this crisis if men and women are afraid to 
report. And, again, what does this mean? That the perpetrators 
are commissioned officers and future leaders on our Active 
Force. Leadership controls every aspect of the discipline 
process. It is time for them to acknowledge that this is in 
their control, and it is time for them to ask, and for you to 
ask, What tool have they not had for the last 20 years that 
they need now? And what promise are they going to make that 
they are actually going to carry out?
    Thank you, and I look forward to your questions.
    [The prepared statement of Colonel Christensen can be found 
in the Appendix on page 60.]
    Ms. Speier. Thank you, Colonel Christensen.
    Colonel Morris.

   STATEMENT OF COL LAWRENCE J. MORRIS, USA (RET.), CHIEF OF 
           STAFF, THE CATHOLIC UNIVERSITY OF AMERICA

    Colonel Morris. Thanks, Chairwoman Speier and members. I 
will just try to highlight a couple of things from my prepared 
remarks. It was my great honor to serve 30 years in uniform, 27 
of them as an Active Duty judge advocate and 3 as a reservist 
tanker in Milwaukee while I was in law school. I had a pretty 
typical Army career, trying cases all over the world, later 
supervising people who tried cases in normal installations and 
in Bosnia, Southwest Asia. I had the privilege of advising 
commanders, and later on, supervising counsel on both sides of 
the courtroom, including when I served as the Army's chief 
defense counsel, the one job that I did seek during my career.
    I also was the chief prosecutor at Guantanamo Bay, and the 
SJA [staff judge advocate] or general counsel at West Point. I 
helped initiate the Army's training program regarding sexual 
assault for prosecutors and defense counsel after I left the 
Army, and then I have been at Catholic University since then.
    I also served on the Response Systems panel from 2012 to 
2014. I am the son and father of West Pointers, and the father 
of a Marine. Today, I am just here giving my own opinions.
    The four matters I would like to mention--and, first off, I 
expect that I differ little in my biases and expectations from 
Colonel Christensen. We had parallel careers in many respects, 
starting from the same law school in Wisconsin, and I think we 
both have a particular affection for and loyalty to people who 
serve.
    The first point about data. I am not an expert in looking 
at the data that has been produced, and think at least it has 
to be taken for the idea that there is an intractability to 
this problem. It is not unique to the military, it is not 
unique to the academies, but it is stark in the way it presents 
itself, and poses the question of how to care for, make people 
feel protected and confident in the system.
    It caught my eye, though, that also there is a relatively 
high level of confidence by the cadets and midshipmen in their 
senior leaders. So we do expect more of the academies--but that 
was a notable contrast.
    Second, on training. The training is not a panacea, but it 
does work and is part of the solution. I think in the military 
we have what is sometimes considered the conceit that we can 
train out of anything, and train to most any standard and 
ambition or behavior. Tougher to do. Sexual behavior is harder 
to train out of than, let's say, smoking or drug and alcohol 
abuse and those sorts of things. And, in addition, society's 
messages regarding sexuality are not always clear or consistent 
to the emerging adult, and our students at the service 
academies come from that same culture. Still, training plus 
accountability is part of the approach.
    Third point, on administering discipline. Where the 
military is unique and particularly well-suited to the range of 
sexual offenses because it has a uniquely rich range of 
administrative and disciplinary options, it gives the 
opportunity, rightly exercised, to snuff out the sort of 
precursor behavior and hold somebody accountable, and send a 
message of accountability to survivors and observers, besides 
the person himself who sees the system against him.
    I am sure as well, though, that my experience isn't unique 
in having taken to trial in military courts cases that civilian 
authorities would not pursue.
    Last points on some fundamentals of the system and some 
cautions. It seems that one of the key questions you are 
tangling with is whether and how much to trust commanders and 
their counsel to rightly exercise the considerable justice-
based instruments available to them. If you think commanders 
are unsuited by training, not being lawyers, or perspective--
considering they might be self-protective or, for some reason, 
disinclined to attack sexual misconduct--then you might want 
another system or a great change to the current system.
    My sense is that commanders are pledged to care for, 
enforce good order and discipline, and that uniting of command 
authority with discipline authority leavened by the required 
and appropriate involvement of judge advocates along the way, 
is appropriate to the requirements of the service and the 
expectations of command. So disassociating that authority would 
reduce accountability, and not enhance discipline in general, 
nor in the realm of sexual misconduct in particular.
    Last point, defending soldiers and coaching and training 
defense counsel was the hardest and most rewarding work I did 
in my career. I am also aware of the risks of unlawful command 
influence, and believe, unlike our appellate courts, there is 
such a thing as they call command influence in the air, that 
some participants in the system might be inclined to convict or 
adjudicate harsher punishment based on a perception of a 
commander's predilections.
    So in fixing the system, it is important still to take care 
to preserve the integrity of that system for all participants.
    Finally, we should be cautious in seeking justice-related 
metrics such as preferral rates, conviction rates, average 
sentences. They might provide some insight into the workings of 
the system, but alone shouldn't be the major indicators of 
success in combating sexual assault.
    Thanks for the opportunity to be here.
    [The prepared statement of Colonel Morris can be found in 
the Appendix on page 64.]
    Ms. Speier. Thank you, Colonel Morris.
    Colonel Christensen, what is stunning to me about this 
report is that we see the increase in sexual assault go up 
100--I mean, 50 percent. And we see the incidents of 
retaliation being such a factor in the unwillingness to report. 
Why, in your estimation, has the prevalence of assault at the 
academies gone up so much?
    Colonel Christensen. Well, from my conversations with 
cadets at the academy, there is a perception among many that 
senior leadership does not care. And as you see, there is such 
a lack of accountability. So for perpetrators, they understand 
that the odds of them ever being punished are almost zero. They 
probably have a better chance of being struck by lightning.
    So there is absolutely nothing to dissuade those who would 
commit a sexual assault from doing so. And then you have the 
problem of trust. When the women and the men do not feel that 
they can come forward and report without them suffering more 
consequences than their perpetrator suffers, they won't come 
forward.
    Last, I believe 2 weeks ago, the Air Force Academy finally 
got a conviction of a cadet for digitally penetrating another 
cadet without her consent. He got a whole whopping 75 days of 
confinement, while facing 30 years of confinement. So we have a 
process that doesn't deliver a sentence that deters. And then 
after this happened, from several sources at the academy, 
cadets who have contacted me and said that there is a rampant 
social media campaign shaming the victims. And that is the kind 
of stuff that has to stop.
    And it has to be an acceptance by leadership that this is 
going on. I think one of the biggest problems is, is that 
leadership hears these numbers but they truly do not 
internalize them as a problem. And I am not necessarily talking 
about the superintendents, I am talking about the people in 
between the superintendents and the cadets.
    I had an opportunity to meet with the vice commandant of 
cadets at the Air Force Academy last year. I was representing a 
young cadet that they were talking about kicking out after she 
reported. I asked him, have you ever talked to a survivor when 
it wasn't an adversarial process? And he said, I don't have 
time for that. And to me, that was such the wrong answer, 
because you will never know what survivors are going through if 
the only time you talk to them is when you are trying to kick 
them out of the institution.
    So I think that those people that are in the middle need to 
accept that there is a problem, and they need to be willing to 
ferret out those who are shaming victims.
    Ms. Speier. One of the issues that comes to my mind, having 
spent time with all of the superintendents over the last few 
days, is that there is really a difference that exists in how 
they handle the cases. For instance, in some of the academies, 
a victim can take a sabbatical. In others, they cannot. Some 
may want to transfer to another academy, and that hasn't been 
an opportunity made available to them. Some have wanted to--in 
some situations, there is going to be recoupment, not just at 
the junior and senior level, but at the freshman and sophomore 
level where a cadet is found to have sexually assaulted.
    Do you have any thoughts on whether it is time for us to 
make sure that all the academies follow a similar process in 
terms of the kinds of resources that are available to the 
victim survivors?
    Colonel Christensen. Absolutely. I think it is time for 
them to have a unified front. That cadets and midshipmen 
understand that they are going to be treated the same no matter 
where they are going to school. You know, this has been a 
complex issue that they have taken individually versus in a 
unified manner. So therefore, you know, I don't think there is 
enough of an effort to see what is working at West Point. Is 
that going to work at Annapolis? Is that going to work at the 
Air Force Academy?
    I also, you know, one of the difficulties that we face in 
the military is we have what we call the uniform military code 
of justice, and the ``uniform'' doesn't mean what we are 
wearing, it means that it is supposed to be the same. And each 
service has their own way of doing things that often pull apart 
what is actually supposed to be uniform. And I think there 
would be great benefit for, especially in the academies, each 
one of them, focusing on how do we do this jointly.
    Ms. Speier. Thank you. Ranking Member Kelly.
    Mr. Kelly. Thank you again, Chairwoman Speier. I am of the 
view that we need to fully acknowledge the problem, and we have 
a problem, and I think we are doing that. But we need to get to 
work on fixing it immediately.
    Mr. Christensen, what are some of the specific things that 
service academies are not doing that they had should be doing 
to reduce sexual assault and sexual harassment, from your 
perspective?
    Colonel Christensen. Well, I think the number one thing is 
trust, and that trust results in reports. So, for example, in 
the Air Force Academy last year, they had 29 reports of sexual 
assault out of over 200 actual cases. Of those 29, 20 of them 
are restricted reports, which for those, if you don't 
understand, that means they can't be prosecuted. That means 
only 9 people out of over 200 actually reported. And what did 
that get? Well, it finally got one conviction.
    I think that there is a definite value to training, I am 
not anti-training, I just don't think it is the panacea. And I 
think one of those things, as a prosecutor talking to a 
prosecutor, is to acknowledge that prosecution is one way to 
deter crime. Prosecution is another way to send a message to 
survivors that we are going to take you seriously.
    The second thing I would say is that I think this is a 
problem across both the Active Force and at the academies, is 
experience levels of the people who are acting as investigators 
and acting as the prosecutors. The services have to commit to 
making sure that we have the most experienced and best people 
doing those jobs. We have a ton of talent in the military, but 
they often get rotated out of those jobs very quickly.
    And as a prosecutor I think you would agree with this, that 
90 percent of the case is won or lost before it ever reaches 
you by the great work done by investigators. And if they don't 
uncover what you need, it is kind of tough to finish it up at 
trial. So we need to make sure we have the best investigators 
possible. And again, this isn't a slam on the people who are 
doing it, they are very dedicated, very hardworking, but they 
don't stay in those positions long enough to become the experts 
they should be.
    Mr. Kelly. Thank you very much. You know, as a former 
commander who has administered UCMJ [Uniform Code of Military 
Justice] up to the brigade level, and also as a former district 
attorney and has seen the inside of both the grand jury and a 
courtroom, I think that is very important to look at--how do we 
collect the facts? How do we get the evidence? Because the case 
is only as strong--so very good point, Colonel Christensen.
    Mr. Morris, you have experience in dealing with these 
issues in both the service academy setting and a civilian 
university setting. What are the differences between how 
civilian universities handle sexual assault and harassment 
claims versus service academies? And are there any best 
practices that civilian universities are using that we can 
adopt?
    Colonel Morris. The way in which they are differing is the 
adjudicative process, the way in which they are similar and 
should be--I am the rookie here.
    There is similarity in prevention and education, and the 
great difference is in adjudication. So I don't think there is 
much difference in the way you have to smother your student 
population with information about sexual assault and about 
prevention and about dignity and respect and all of those 
factors that contribute to somebody's behavior.
    And as I mentioned before, you are taking a product of 
society, and to some degree, reorienting those individuals. In 
the adjudicative process, though, a great difference. Under 
title 10, of course, there is the expectation since the ``Dear 
Colleague'' letter produced by the Obama administration in 
2011, to essentially set up amateur informal court systems, 
adjudicative systems, and they have proved to be really tough 
to manage. All coming from the right impulse of attacking this 
behavior and having a system that has enough credibility that 
it cares for the survivor and sends a message to the other 
students that this process has the possibility of bringing 
about justice. That it stings enough to correct that person's 
behavior, hold that person accountable, and deter others.
    The difficulty there is it is really quasi in being quasi-
judicial. You know, you are allowed to have counsel there, but 
they can't speak. There is not direct cross-examination. All of 
the things that are limited because they are just--they are 
created and kind of cooked out of the university's processes.
    So the contrast is the military system, of course, has that 
full range of administrative and nonjudicial options and 
corrective training and all that available to it, besides the 
cases that are appropriate to get to a court-martial.
    Mr. Kelly. I agree with Mr. Christensen that training 
alone--we just can't train ourselves out of this crisis. But I 
am at a loss to see how removing the commander and the 
authority of a commander, which has many more tools than--I can 
tell you as a former district attorney and prosecutor, has many 
more tools available than just a prosecution side.
    I am at a loss to see--do you know any way, Mr. Morris, in 
which removing the commander from sexual assault prosecutions 
improves this situation?
    Colonel Morris. I think I understand where the impulse is 
coming from, because it comes from a point of frustration of 
feeling like we are many years into this and haven't been able 
to crack it. While understanding that, my sense is almost to go 
more in the other direction, to hold commanders more 
accountable, to be still more demanding on those leaders to 
turn this around, and to use all of the levers that are 
available to them.
    So the removal of them then makes them less accountable, 
disincentivizes them, as opposed to providing extra incentives 
and the appropriate pressure that the system can bring.
    Mr. Kelly. Then my final question, Chairwoman Speier, and 
this one I think is really important. Meeting with all the 
service academy superintendents over the last week, one of the 
things that--and DOD [Department of Defense], senior DOD 
officials. One of the things that is apparent is you have got 
dual competing chains of leadership, of leaders. You have, 
number one, the superintendents and all the cadre that are 
professional officers and soldiers and should conduct 
themselves that way. And then you have the peer chain of 
command and the peer pressure from a group. And having three 
children of my own, I understand sometimes the peer pressure 
can be greater than parental or teacher pressure.
    And so what can we do to reduce the amount of peer pressure 
so that they feel comfortable among their peers reporting, and 
also feel that same peer pressure to keep them from doing 
sexual assaults or harassment. And that is to both--to Mr. 
Morris also, I guess.
    Colonel Morris. I mean, one of the unhappy results of this 
long-term struggle at all institutes of higher education is 
that there is a pretty well-understood set of best practices in 
terms of education and prevention. You can vary from school to 
school, but there is an understanding of hitting them--I mean, 
at our school, you have to do some online training before you 
walk into class your first day of school in August. And then 
they have mandatory training all along the way. There is this 
thought of what the industry calls booster shots at each year. 
So that as their perspectives on their world change, you are 
catching them again, and you are trying to reinforce the right 
behavior.
    So it is the sustained aspect of it more than anything 
else.
    Mr. Kelly. Thank you, Chairwoman Speier, and I yield back.
    Ms. Speier. Thank you. Mr. Cisneros.
    Mr. Cisneros. Thank you, Madam Chairwoman. Colonel 
Christensen, could you explain to me just the difference 
between restricted and unrestricted reports?
    Colonel Christensen. Sure, I would be happy to. So about 
2004-2005 timeframe, Congress looked at the reporting problems, 
and one of the problems was that many victims were looking for 
mental health treatment or medical treatment, talk to an 
attorney, talk to a chaplain or something. But when they did 
that, because we don't have, for example, medical privilege in 
the military, they would go to the ER [emergency room], say, I 
was just raped, I just want treatment, I am not looking for an 
investigation, but they had to be reported.
    So Congress said, Hey, we need to do something about that. 
So they gave the option of restricted reporting. And so 
restricted reporting allows the survivor to go to mental 
health, go to medical, go to the SARC [Sexual Assault Response 
Coordinator], go to a victim advocate, go to an attorney, go to 
the chaplain, and get whatever service they believe they need 
without it starting a corresponding investigation.
    An unrestricted report is if the military finds out in any 
other way that there has been a sexual assault, by law that 
must result in an investigation, and by law that investigation 
must be done by one of the criminal investigative services, 
NCIS [Naval Criminal Investigative Service], CID [Army Criminal 
Investigation Command], OSI [Air Force Office of Special 
Investigations]. And so, if a survivor tells her commander, 
that is unrestricted. If a survivor tells a friend, that is 
unrestricted. If a survivor tells OSI, that is unrestricted.
    Ms. Speier. But that victim also still gets services as 
well?
    Colonel Christensen. Yes. Yes.
    Mr. Cisneros. So you just kind of said--can you go through 
that again? Who are mandatory reports? If a victim comes to an 
individual there at the academy, or even the military, who is 
required to report that sexual assault?
    Colonel Christensen. Anybody other than--anybody who is 
wearing a uniform, other than the SARC, the victim advocate, 
attorney, such as a special victims attorney, medical, mental 
health, chaplain. So if they tell anyone else, that is a 
mandatory report.
    Mr. Cisneros. So according to this report and according to 
your statement, 92 percent of the victims are choosing to do a 
restricted report rather than to go and tell somebody who would 
have to then report it?
    Colonel Christensen. Well, what--actually 92 percent aren't 
telling anyone.
    Mr. Cisneros. Okay.
    Colonel Christensen. About 4 percent, depending on which 
academy you are at, about 4 to 8 percent are doing restricted 
reports, and somewhere around 6 to 8 percent are doing 
unrestricted reports.
    Mr. Cisneros. Okay. Colonel Morris, with your experience at 
a university--a civilian university, if somebody came to an 
individual or doctor there at the university, would that 
doctor, physician, counselor, be required to report that 
assault?
    Colonel Morris. They would not, only under the narrow areas 
in the law where there is mandatory reporting, and of course, 
that is mainly of minors.
    Mr. Cisneros. Okay. All right. So one of the problems I 
see, and I understand the concern of the victim, right? We want 
to take care of the victim and have their privacy, but if the 
numbers are continuing to increase where they don't feel 
comfortable to where they can report it and it is going to be--
people are going to go and be held accountable for their 
actions, we are in a situation now, like you said, where sexual 
harassers, people who commit sexual assault are going out into 
the military service now, more or less maybe with the 
opportunity to do it again and commit that crime again.
    What recommendation would you have to get around this to 
where we can go and make the victim feel comfortable where they 
can do an unrestricted report?
    Colonel Christensen. Number one is understand what a 
survivor is going through. You know, somebody who has been 
sexually assaulted is usually suffering from PTSD [post-
traumatic stress disorder], PTSD that is going to affect their 
ability to succeed. A lot of times it can result in minor 
misconduct. It can also result in counterintuitive behavior and 
destructive behavior.
    What we see too often is that the academies turn that 
natural impulse from being a survivor into a reason to kick you 
out, and that is the message that is being sent. The second 
thing I would say is making sure survivors understand that if 
they choose to want to pursue justice through a court-martial, 
that that is something that if the evidence is there, it is 
going to be taken seriously and done.
    I think commanders have a role, regardless of who makes the 
ultimate decision to prosecute. I just think that the person 
who makes the ultimate decision to prosecute should be a very 
experienced, seasoned JAG, not a commander. What needs to be 
understood is that within the military there are 14,000 or so 
commanders. There are only about 400 of them that have general 
court-martial convening authority, and only about 140 of them 
actually use it.
    So commanders have a role every day that comes short of 
prosecution. And when we talk about non-judicial punishment, we 
talk about administrative actions that Colonel Morris talked 
about, those all still exist. But a member--but a survivor has 
to have faith. There was a survey done by the Iraq-Afghanistan 
Veterans of America that was just released a couple weeks ago, 
and they asked thousands of veterans and Active Duty members, 
would you be more likely to report if a prosecutor made the 
decision than a commander? Over 50 percent said yes, only 3 
percent said no.
    So I think professionalizing the justice system would go a 
long ways to doing that.
    Ms. Speier. All right. Your time has expired.
    Mr. Cisneros. I yield back my time.
    Ms. Speier. Mr. Abraham.
    Dr. Abraham. Thank you, Madam Chair. As a medical doctor, I 
can tell you it takes extreme courage to--when you are an 
assault victim and survivor to step out of the shadows and tell 
your story. So I agree. This question is for both of you 
gentlemen.
    I do believe the academies are trying to work this out and 
find the right solution. Specifically, for both of you, what 
programs have you seen that work? And what programs would you 
change to help allow that survivor, that victim to step out?
    Colonel Morris. I don't have a program as such to 
recommend, I just have watched programs now, particularly when 
I served at West Point, and then watching it in the civilian 
world. The greatest thing is to make no assumptions about the 
experience or perspective of these 17-, 18-, and 19-year-olds 
as they come through the door. And to work from a standpoint 
kind of institutional humility on information they would need 
to make right decisions.
    We have a little more freedom at a private Catholic school 
to fully bring out issues of how those choices are made and 
framed. But the biggest thing is to have a plan that isn't 
perceived by the students as sort of this obligatory burst of 
stuff, and then they don't hear about it again or then there 
is, you know, a display or something later in the year.
    It is a, you know, prepared, planned out, sustained program 
that grows as the student works its way through the school, is 
the greatest part, because you don't lose them. And then they 
have a sense that they really must take this seriously, they 
are talking to me about this again.
    Dr. Abraham. So a continuing education----
    Colonel Morris. Certainly.
    Dr. Abraham [continuing]. So to speak. Colonel Christensen, 
do you have any comments?
    Colonel Christensen. Well, this isn't unique to the 
academies, but I think one of the most important things that 
has been done, and this is, again, a result of the action by 
Congress, was the creation of Special Victims Counsel, Victims 
Legal Counsel program. I think that is the most ground-changing 
legislation that has been passed concerning military justice. 
It is a game-changer for survivors because they have somebody 
in their corner. And beyond that--I will give General Silveria 
credit, he speaks passionately. I think those words need to be 
heard.
    One of the problems, though, with command being in charge 
is if General Silveria speaks too passionately, speaks 
critically of certain processes, or any of the other 
superintendents do, as Colonel Morris rightfully talked about, 
that creates the perception of unlawful command influence. And 
it is one additional reason why I think commanders need to be 
freed to be advocates for change without having the burden that 
if they talk too much as a commander, too much as somebody who 
says this is unacceptable, that it creates unlawful command 
influence ideas.
    Dr. Abraham. Okay. And the second question, but again, to 
both of you, the way I understand it, most of the retaliation 
is from the peers. What can we do to prevent that? Colonel 
Morris, I will start with you.
    Colonel Morris. And I don't have a particular perspective 
on that other than in my prep for this, that really struck me, 
that there seems to be a substantial amount of that, plus you 
see the great contrast in the statistics between the cadet 
trust of their peers and the cadet trust of the leaders, a 
really high level, 80 percent, more or less, I guess, 70--in 
the 70s and 80s of leaders, and in the 40s and 50s of their 
peers. So as you are looking at how do we direct things, the 
peers always have the greatest influence. And in the academies, 
more so, because your life--you don't have much volition in how 
you live.
    So just looking at it as somebody who once served there and 
looking at the new data, if I were to look where to 
concentrate, it would be on building that trust and changing 
whatever is afoot there that makes the peers not a trusted 
source of support and encouragement and deterrence.
    Dr. Abraham. Colonel Christensen, do you have a comment?
    Colonel Christensen. I would say that there needs to be 
greater attention to social media and the impact of social 
media on shaming of victims. From the clients I talked to, that 
is a huge problem is the social media bullying. I know that is 
not necessarily easy for the academy to follow, but I think 
they should make efforts to see what is going, and then when 
they see that that is happening, for example, the people 
shaming the victims in the case last week, that they need to 
speak out about it--leadership needs to speak up.
    Dr. Abraham. Thank you, Madam Chair.
    Ms. Speier. For the new members, let me just point out that 
when the plebes come to the academies, they are overseen by the 
senior leadership of the institution. As they matriculate into 
the sophomore and junior years, they are overseen by senior 
leaders within the actual military academy, who are also 
cadets. So it is cadet leadership that is overseeing 
sophomores, juniors, and seniors for that matter.
    All right. We will now go to Ms. Haaland.
    Ms. Haaland. Thank you, Madam Chair. Thank you both for 
being here today. And what roles and responsibilities do senior 
academy leaders have in preventing and responding to 
occurrences of sexual assault and sexual harassment at military 
service academies? And, second, how do you believe senior 
leaders should be held accountable for continued increased 
rates of the USC [unwanted sexual contact] at those academies?
    Colonel Christensen. Well, I think the role is the central 
focus of each academy, what can the superintendent do? They are 
the voice. For those who haven't served in the military, I know 
many of you have, when you are a cadet, people like General 
Silveria and the other superintendents are gods, and their 
words matter.
    And so being that vocal person, holding people accountable, 
whether it is people on their staff who are retaliating, 
holding cadets accountable who retaliate. I think retaliation 
is just one of those huge problems that they really need to 
tackle.
    And I am sorry, your second question was?
    Ms. Haaland. Excuse me. How do you believe senior leaders 
should be held accountable for a continued increase in rates?
    Colonel Christensen. Well, I say this mindful that they are 
sitting next to me. I would say that there are certain times, 
you know, we need to let people go, move them on if they aren't 
getting the job done. There seems to be, institutionally now in 
the military, a reluctance to hold senior leaders accountable. 
You know, General Eisenhower during World War II fired, I 
think, half his generals over the war.
    It is almost rare--it is exceptionally rare that a general 
is ever told now, you are just not getting the job done, time 
to move on. And I think that is it. You know, how many times do 
you get to fail before you are fired?
    Ms. Haaland. Thank you.
    Colonel Morris. I agree. I don't have much to add other 
than the superintendents are just phenomenally in charge of 
those institutions, even in some ways greater than a division 
commander or some equivalent in the field. So they are able to 
marshal all of that authority and prominence in constructive 
ways.
    When I was the staff judge advocate at West Point, one of 
the things our superintendent did was went to a lot of women's 
sports games more than he went to men's, just one micro piece 
of making clear that we really all are part of the same team. 
But it then requires at times to leverage that prominence and 
that power to potentially be unpopular by being just inflexible 
on matters like sexuality in particular, and driving home in 
all of the ways you can with those peer and near-peer levels. 
And accountability, same thing. The traditional Army military 
methods of holding senior leaders accountable is, sure, an 
appropriate outcome.
    Ms. Haaland. Thank you so much. Madam Chair, I yield my 
time.
    Ms. Speier. Thank you. Mr. Bergman.
    Mr. Bergman. Thank you, Madam Chair. And thanks to both 
you, Colonel Christensen and Colonel Morris, for your decades 
of service, because as SJAs, and as legal advice to commanders, 
good commanders rely on you for good sage advice to make wise 
decisions on behalf of whatever unit they are in command of. 
That is not easy, and it is not exact.
    Colonel Christensen, you mentioned--you used statistics 
comparing academy to Active Duty. Did your Active Duty 
statistics include a breakdown of officer and enlisted?
    Colonel Christensen. It does, although I could not, off the 
top of the head, tell you what it does or what those are. 
Obviously, in the Active Force crime rates are higher among the 
young----
    Mr. Bergman. The point is, you enter the academy at the age 
of roughly 18?
    Colonel Christensen. Right.
    Mr. Bergman. You are coming out of high school. There is a 
pretty good chance you are going to enter the enlisted ranks at 
the age of 18 or fairly close?
    Colonel Christensen. Correct.
    Mr. Bergman. And if you are going into an officer program, 
you know, you are going to enter--as you become an officer, it 
is going to be, you know, you are going to be 22, 23.
    Okay. Mr. Christensen, in your testimony you said that 
Congress needs to either, quote, ``Empower military prosecutors 
to lead the process and decide whether to prosecute cases, or 
if necessary, turn over all academy cases to the relevant 
civilian justice systems,'' end quote. However, back when you 
were on Active Duty you successfully prosecuted many cases that 
civilian jurisdictions simply refused to.
    And my understanding is that the services still prosecute 
sex-related offenses that would never be taken to trial by 
civilian prosecutors. What is the basis then for believing, at 
this point, that the civilian system would be better?
    Colonel Christensen. Well, yes, I have prosecuted many 
cases, and I have prosecuted cases that were declined by 
civilian systems. I think to remember, too, is that there are 
cases being prosecuted right now in the civilian system that 
the military would not have prosecuted.
    Mr. Bergman. What precipitated the change, because you were 
on one side and you were successful. Is there some tool or 
whatever that you used or the folks on your team used to 
successfully do these that no longer exists in the military 
side?
    Colonel Christensen. There is no tool that--the difference, 
but what we are looking at is a systemic failure at the 
academies, and I did mention that----
    Mr. Bergman. So what you are--what I hear you saying then 
is that we have a long-term systemic failure that has now 
fallen outside the realm of the services' ability, in this 
case, the academies' ability to utilize the UCMJ effectively?
    Colonel Christensen. Well, it is clearly not being used 
effectively, if you only have four convictions. There were 
about 70 actual reports that were unrestricted, only 4 result 
in a conviction. That tells me we are not doing a good job of 
that. I am not----
    Mr. Bergman. What has changed?
    Colonel Christensen. What has changed since when?
    Mr. Bergman. Well, what caused the change?
    Colonel Christensen. I am sorry.
    Mr. Bergman. Well, if you were successful but now we are 
not being successful, what has changed?
    Colonel Christensen. Well, I can arrogantly say that I am 
not there anymore, but----
    Mr. Bergman. That is a fair assessment. Any good commander 
has good faith in their own ability.
    Colonel Christensen [continuing]. That is not the case.
    Mr. Bergman. Well, I will tell you what, before we run out 
because my time is--Mr. Morris, do you have any comments on 
that particular situation?
    Colonel Morris. On the issue of----
    Mr. Bergman. Of basically transitioning the cases to 
civilian as opposed to under, you know, under the UCMJ as we 
would do it now.
    Colonel Morris. I do, just because I have thought about it 
a lot, and it is the thing that all of us discussed and argued 
about among ourselves as we worked our way through the system 
from both sides. So I have a pretty strong sense that a system 
that reinforces the authority of commanders in military justice 
is appropriate to the expectations we have of commanders. That 
you have to unite the responsibility, you know, the 
comprehensive responsibility that a commander has for his or 
her people is like nothing else in society. And to extract the 
ability to bring discipline from that makes that commander less 
effective.
    And it is not to say all commanders are the perfect fonts 
of wisdom or anything. It is not a solitary undertaking. It is 
understood to be, in most respects, with the counsel of a judge 
advocate, and you know, the rules for court-martial require 
that a judge advocate certify that there is sufficient evidence 
to go forward in a case to begin with.
    Mr. Bergman. Thank you. I see my time has expired, and I 
yield back.
    Ms. Speier. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you very much, Madam Chair.
    And thanks to you all for being here as well. Nice to see 
you, Colonel Christensen, again. I know we were working on 
these issues for many, many years, and rather than go back and 
review some of that, there are a few more specific questions I 
had.
    One is, Colonel Christensen, you mentioned that one of the 
good stories out of this is the special victims' advocate, and 
I would agree with that. I think that we have at least had good 
reports coming back from time to time, that the training and 
the ability to actually testify on behalf of a victim was 
very--made a big difference really in the way that the victim 
was seen, I think, and understood.
    Do you feel that that is so in the academies, that the role 
of that Special Victims' Counsel is one that you see reflected 
even for Active Duty the same, or is there a difference?
    Colonel Christensen. I think they are probably similar. 
Going back to what I talked about before though, what I see is 
a lack of experience. Special Victims' Counsel, all the ones I 
have dealt with, are very dedicated, fighting very hard for 
their clients. But for many of them, the first survivor they 
ever talked to is when they were Special Victims' Counsel, and 
they never talked to one before.
    I can't specifically speak to all the Special Victims' 
Counsels and VLCs [Victims' Legal Counsel] at all three 
institutions, but the ones I deal with are trying. But what I 
have seen, my experience with them, is that mistakes made by a 
lack of experience that have resulted in less justice than I 
think could have been.
    Mrs. Davis. Okay. Thank you. I wanted to double-check with 
that.
    And, Colonel Morris, I know that you have had that regular 
university experience. It is a Catholic university, perhaps 
there are some different expectations there as well. But could 
you speak to really the differences that you see, because we 
would think it would be cultural, perhaps.
    I am particularly concerned that as sophomores, there is a 
difference at the academies in the rate of reporting that we 
have seen. One can suggest that perhaps the pressure on 
students is different as freshmen. As sophomores there is a 
little bit more freedom.
    What do you think is different? Because I am wondering 
whether--if you were to look at all that goes on in the 
academies, is there any difference, you think, between the 
pressure that young people are under? We know that it is tough, 
academically it is tough, socially it is tough, physically it 
is tough. I mean, there are differences in--how do you compare 
that to university?
    Colonel Morris. I think, no doubt, there is an intensity at 
the academies that there isn't an equivalent to in many 
civilian universities. The harder question out of that is then 
what out of that entire package of, you know, heavy 
regimentation, you know, a literal regimentation on so many 
parts of your life, is there any correlation between all of 
that and what looks to be some reluctance, or some lack of 
confidence to report?
    You know, does it relate to how we are running the academy? 
Does it relate to always being in a minority, right? No matter 
how high the numbers are, you still have three-quarters, 80 
percent, 20 percent split. And when you are looking at all the 
peer relationships, which seems to be such an ongoing concern, 
it is both with the men, but also with other women. You know, 
and are there aspects of even energizing that subpopulation of 
upper-class women to help to fix that----
    Mrs. Davis. Do you see any reluctance to take a look at 
that on the part of the academies, on the part of others who 
deal with this issue? I mean, how central is it? I am not 
suggesting that that alone is something that we need to be 
aware of, but I am just raising that question as we look at 
those statistics.
    You know, it is interesting to note the difference between 
freshmen and sophomores and going onto juniors. So perhaps that 
is something that--and I hope our superintendents are going to 
address that in a little while.
    What--my time is running out. What--any last-minute thought 
about that?
    Colonel Morris. I am outside my competence on current 
academy operations.
    Mrs. Davis. Okay.
    Colonel Morris. But, you know, in--we have looked at--we 
had, for a while, a declining order of confidence as people got 
to be--as women got to be juniors and seniors. We expected it 
to be otherwise. And what it reflected at that time was they 
had kind of a legacy perspective of a not very strong reporting 
culture.
    And then we saw that change with the next wave who worked 
through, which just reinforced the idea that a continued drum 
beat, then we ended up with juniors and seniors, previously 
with less faith, then increasing the faith through all 4 years, 
increasing their trust in the system through those years.
    Mrs. Davis. Okay. Thank you. I think my time is up, Madam 
Chair.
    Ms. Speier. Your time is expired. I would say, Mrs. Davis, 
that one of the things we should look at, though, with the 
Special Victims' Counsel, is how they are being utilized, 
because with one of the victims that I spoke with, she only 
ever talked to her Special Victims' Counsel by phone, so we 
might want to evaluate the actual exchanges that take place and 
whether we need more resources there.
    Ms. Cheney, you are next.
    Ms. Cheney. Thank you very much, Madam Chairwoman, and 
thank you for holding this important hearing. I commend you and 
our witnesses for being here today.
    This is an incredibly difficult set of issues that both of 
our witnesses, I think, have pointed to the fact that it is 
something we are dealing with across the nation, certainly at 
our service academies but at, you know, probably every single 
institute of higher learning. And looking for ways that we can 
address the issue, that we can effectively address the issue, 
and that we can reduce the numbers is a priority for every one 
of us.
    I wanted to ask a couple of questions. Colonel Christensen, 
you began talking about the issue of restricted reporting 
versus unrestricted reporting. And it sounded to me like you 
were saying that the numbers, in terms of cases that are 
brought to prosecution, are clearly affected by the fact that 
some of the reports are restricted. Can you address that?
    And I think we all share the view that it is very important 
for victims to be able to get help and support without telling 
them they must absolutely go public. But it sounds to me like 
you were suggesting that the restricted reporting is some sort 
of a difficulty or a challenge.
    Colonel Christensen. Yes. As a prosecutor, you are 
frustrated by a restricted report because you know that there 
is a crime out there that you can't address. And it is not 
without controversy, restricted reporting versus unrestricted.
    Ms. Cheney. But are you advocating changing that?
    Colonel Christensen. No. No. And the reason I am not is 
because for survivors, they tell us it is very important.
    Ms. Cheney. Exactly. Thank you. I appreciate that.
    And then, one of the topics that we haven't addressed yet, 
and I would like to hear both of the witnesses' perspective on 
this, is the issue of alcohol. And I think any conversation 
about sexual harassment, sexual assault on college campuses, 
including at the service academies, has to get into this issue 
of alcohol. And I would be interested to hear both of your 
perspectives on what we can better do at our academies on that 
issue in particular, as it relates to these set of attacks?
    Colonel Christensen. Yeah. I think that is a great 
question, Representative Cheney. Obviously, alcohol is a 
factor. I think it is too easy to look at as a panacea, if we 
get rid of alcohol, it goes away. Well----
    Ms. Cheney. No, there is certainly no panacea on that.
    Colonel Christensen. Yeah, it won't go away.
    I do think de-glamorization of alcohol is important, you 
know. And I think at the academies, it is particularly 
important, because we are talking in a college atmosphere. And 
I think that is where a lot of this responsibility goes on the 
seniors at these academies, who are the legal drinking age, to 
ensure that they are setting the right example.
    So, for example, I have, you know, talked to academy grads 
who have said, Yeah, I remember when I was a first-year being 
ordered by the senior to find alcohol for him. And my job was 
to bring him a case of alcohol, you know, and you were supposed 
to leave it in the staircase. Okay. That is something that 
needs to be rooted out. You can't have a culture that allows 
that.
    So, you know, getting at alcohol clearly is something that 
reduces a risk factor for sexual assault.
    Ms. Cheney. Thank you.
    Colonel Morris.
    Colonel Morris. I think you can't emphasize that enough. 
Alcohol plus youth plus first-time unsupervised, there is a 
giant correlation, and I think an indisputable one. And it is 
both the formal stuff, how do you keep it away, the informal of 
managing it even if a person is going to drink, and then 
letting other things go on.
    You know, there used to be a discussion at West Point 
about, you know, when the Firstie Club would close and the 
seniors would stream their way back to the barracks, not all of 
them sober. You know, we always talk about the harder right. Is 
the harder right some serious crackdown that makes clear to 
those peer leaders that you don't, you know, take the guys to 
New York City to drink underage, but you really do step up and 
provide an example, you know, an unpopular, constructive 
example that has an impact on things like the rates of assault 
that you see.
    Ms. Cheney. Thank you. And I think, again, I am sure all of 
us on this panel agree that we need to do better across the 
board. But I would like, Colonel Morris, to get your 
perspective on, you know, as we are looking for ways to do 
better and to improve the system, and we look at what is going 
on in the civilian world and we are looking at the possibility 
of removing these cases from the command authority, is there 
something that you see in the civilian world, particularly on 
our college campuses, that would make you think that would 
somehow be more effective?
    Colonel Morris. No. And we have had a lot of--we have a 
good relationship with the MPD [Metropolitan Police Department] 
here in Washington. But, of course, of course, there is a 
reluctance to try the marginal case in the military. And I am 
generalizing from my experience, but just not my personal one, 
but of my time serving, is much more willing to try the close 
case, willing to take a chance and lose the close case for the 
collateral benefit of serious solidarity with the victim and a 
person knowing you are still brought through the court martial 
process, even if you escape un--not convicted. You have 
exercised the process in a way that has an impact on those who 
observe it, and not just the principals involved in that case.
    Ms. Cheney. Thank you very much. My time is expired.
    Ms. Speier. It is expired.
    Mrs. Luria.
    Mrs. Luria. Didn't the bell ring for votes?
    Ms. Speier. They have called for votes, but there is 10 
minutes left and we are going to continue until about 5 minutes 
before, because we want to try and finish this panel before we 
bring the superintendents in.
    So Mrs. Luria.
    Mrs. Luria. Okay. Well, thank you very much for being here 
today and talking about this important issue.
    I just wanted to quote back Mr.--or, Colonel Morris, a 
comment that you made in your opening remarks that you were not 
an expert in looking at the data. And I just wanted to note 
from my review of the data that there seemed to be some sharp 
disparities in the data.
    It seems that, you know, the number of women that the 
academies over time--we just passed the 40-year mark of having 
women at the academies. Myself, I am a graduate from 
approximately 20 years ago. Are we normalizing this data at all 
as the number of women at the service academies grows, based 
off of the number of women in the population at the service 
academies?
    Colonel Morris. I can't answer that for you.
    Mrs. Luria. Okay. And there was a reference by both of you 
early on in your remarks that we have seen a 50 percent 
increase over the last year. And I am looking at the data and I 
am looking at, you know, first, the number of reports for West 
Point, for the Military Academy, went from 43 to 48 reports.
    And then--well, the way that it is estimated, so cadet--
this is the blue dots on the chart--cadets estimated to have 
experienced unwanted sexual contact based on the survey 
prevalence rates. The best I can tell is that this is an 
extrapolation from the number of reports to correlate to the 
number of incidents that happened.
    And if you look at that from the 2015-2016 academic year to 
the 2017-2018 academic year at the Military Academy, for 
example, it looks as though this jumped from 129 to 273, which 
is an alarming amount. However, if you are basing it off the 
number of reports, which more than doubled themselves, could 
this not indicate that we have an improved reporting rate 
versus an increased number of actual incidents?
    It is very unclear the way the methodology of the report is 
written and analyzing the data, you know, how such a 
significant jump can take place in those--that 2-year period, 
and to discount the fact that actually reporting has gone up, 
because reading the comments of what the superintendents at 
each academy has done, it actually shows that they have taken a 
lot of creative measures to improve reporting.
    And I did have the opportunity to sit down with the 
superintendent from the Naval Academy earlier this week, and 
just the simple effect of, you know, having moved the location 
of the person that you go report to to a more out-of-the-way 
spot that was not as visible, you know, when midshipmen wanted 
to go report, had a significant impact on their, you know, 
willingness to report in what they felt to be a more 
confidential way.
    And also during the earlier remarks, I heard you say that 
senior leaders trust, so trust in senior leadership that people 
would report, was an issue. And I read the report, and, you 
know, I was actually quite pleased that at the Military Academy 
it says 85 percent; at the Naval Academy, 76 percent; and at 
the Air Force Academy, 80 percent have confidence that their 
leadership is taking correct action in order to prevent these 
types of incidents.
    So, you know, I am hearing one tone in your remarks, but 
that is not matching the data that is indicated here. Can you 
explain the difference?
    Colonel Christensen. So, first, on the data you just talked 
about, so what I broke that down to was the women. And so the 
overall academy rate, for example, might be 80 percent, but at 
West Point and at--excuse me, at Annapolis and at Colorado 
Springs, what you see is among women, who have the higher 
sexual assault rate, their satisfaction rate or confidence rate 
was about 60--or, excuse me, 70 percent.
    So, now, you can say, wow, that is great, 70 percent think 
you are doing good. When I was chief prosecutor, I had 20 
prosecutors working for me. If a third of my prosecutors 
thought I wasn't doing a good job, I would think I was failing. 
I don't think those are really good numbers, you know, glass 
half full, glass half empty.
    As for actual----
    Mrs. Luria. Okay. I think I understand your point on that 
topic, that we disagree on the numbers of confidence that we 
are reporting back----
    Colonel Christensen. Right.
    Mrs. Luria [continuing]. From the midshipmen. And there is 
a difference based off of gender, which, you know, could be 
expected, based off of people interpreting the question 
differently or having had different life experiences.
    Colonel Morris, you also said, quote/unquote, ``I am 
outside my competence in current academy operations.'' So I am 
curious as to when the last time is you visited the academies 
and spoke directly to leadership there, at either the 
midshipmen leadership level, the company officer level, the 
brigade officer level, or the senior leadership, superintendent 
or commandant level to have an assessment from their 
perspective on the effectiveness of these measures that they 
are implementing.
    Colonel Morris. None at all. No formal contact. I have been 
up there a lot because I found people who have been there----
    Mrs. Luria. Okay. Thank you. I yield the balance of my 
time. Thank you.
    Ms. Speier. There is 6 minutes left in the vote. Mrs. 
Trahan, you can go ahead if you would like or we can--no. Go 
right ahead.
    Mrs. Trahan. Thank you.
    Thank you so much for your service, and thanks for being 
here today.
    The survey indicates that there are far more instances of 
unwanted sexual contact than there are actual reports, 
restricted or otherwise. And as you noted, it does seem clear 
that accountability must be clear and consistent to make real 
change. Men and women must feel as though they will be safe and 
the perpetrators dealt justice if they are going to come out of 
the shadows.
    But you spoke about training being a constant over the 
years while sexual assault numbers continue to rise. I am 
curious to understand if you see any merit in the training 
programs as they are designed today, and what other steps we 
should be taking.
    Colonel Christensen. Sure. I am not an expert on training. 
I have sat through many of the trainings. I do think trainings 
have important part of this. I think it aware--brings awareness 
to issues. It makes people see things in a different way.
    I leave it to what I believe are very dedicated experts in 
the SAPR [Sexual Assault Prevention and Response] programs to 
develop that training. I am not critical to training. I am just 
saying, it is not going to end what we are doing. And so, I 
think the right mix of training, how that is done, is left to 
the experts, which I am not an expert on training.
    As far as, you know, accountability and where we are and 
things like that, you know, going back to the question earlier 
about when--what has changed, well, when we talk about 
accountability at the academies, it has never been good.
    You know, in the 2003 crisis at the Air Force Academy, I 
believe there were, like, 139 women who said they were sexually 
assaulted, and zero had a prosecution out of it. So when we are 
talking about differences, it is just a decades-long problem 
that hasn't changed. And the question is, how many times are 
you going to say, Well, we are going to change the program, and 
we will get a different result.
    Mrs. Trahan. Then, I guess, my only other question in terms 
of, you know, culture often reinforces training, what cultural 
factors at the service academies are at play in allowing these 
crimes to continue?
    Colonel Christensen. Well, I think one of the cultures we 
have talked about is alcohol. I think another culture is there 
is definitely perception there is a different accountability 
level for athletes than there are for the rank-and-file 
members.
    There was a West Point, I think it was the starting 
quarterback for West Point who had alcohol violations, 
allegations of sexual assault. And, you know, he led West Point 
to a game over--a victory over Navy. I know that is a big deal 
for them.
    And Navy felt--excuse me, Army failed to tout his virtues 
as a cadet. He had some pretty serious misconduct in his 
background, and so, when you look at victims who are being 
forced out because of what is really minor misconduct, for them 
it is very difficult to understand why there is this cultural 
divide.
    Mrs. Trahan. Great. Thank you. I yield back.
    Ms. Speier. Thank you.
    Ms. Escobar, there is still about 250 to 300 votes that 
have not been recorded, so we still have time. So please go.
    Ms. Escobar. Madam Chairwoman, thank you so much for having 
this hearing. This is such an important topic.
    And, gentlemen, thank you for your testimony here today.
    You know, I--the military, obviously, is a very different 
institution than any other institution, but are there other 
male-dominated institutions that could offer some best 
practices? I know, you know, training you mentioned, we are not 
going to get ourselves out of this through training. But are 
there some best practices that have not yet been embraced, 
adopted, utilized as a way to try to attack the problem?
    Colonel Christensen. If I were the superintendents, I would 
have Terry Crews at my academies next week. They need to hear a 
voice from somebody like him. He comes from the sports and 
entertainment industry. He has been a survivor. What an amazing 
human being.
    I think the most important things for people to hear is 
actual voices of survivors. And the difficulty is, it is very 
difficult for a cadet survivor to stand up and talk to the 
cadet wing, because of what they go through. But if you can 
bring in somebody who has instant credibility--and if Terry 
Crews can be sexually assaulted, anybody in the world can be 
sexually assaulted--and so that--leaders like him, who can 
speak powerfully to the issue.
    Colonel Morris. Nothing to add, other than to--once you 
have a sense of a program in place leave it in place long 
enough to evaluate it. You know, there is always a lagging 
indicator from any kind of training and any kind of 
consciousness raising on most any behavior.
    You know, the military saw it and attacked it with unusual 
success, with drugs and alcohol and fitness and other things. 
Sex is harder to do anyway. You know, it is not just subject to 
sort of the solitary self-discipline that some of those other 
behaviors relate to.
    But there is no lack of really excellent programs that have 
worked at places. But, you know, put it in place, have a set 
of, you know, reliable metrics and monitors, and then let it 
work long enough that you know you are evaluating a system that 
has given you, you know, replicable results.
    Ms. Escobar. You know, the other aspect that was mentioned 
earlier that is very troubling is the sort of social media 
bullying that happens as part of the retaliation, and that is 
something that is obviously prevalent, you know, in every 
aspect of our lives. I mean, you know, kids, middle school kids 
deal with a lot of that in a way that my generation never did. 
My children have had to deal with that in a way that my 
generation never did.
    But one of the things that I tried to teach my kids was 
about being witnesses. When they witness something, when they 
sense something, you know, about being an advocate. And many 
times that is very, very difficult because then the advocate 
himself or herself faces the same retaliation or similar, or 
sometimes maybe even worse retaliation.
    But is that a component of the training so that, you know, 
individuals who are witnesses, either through what is happening 
on social media, or witnesses to retaliation or bullying, that 
they have an obligation to stand up and, you know, show that 
strong moral character to speak out and act out?
    Colonel Christensen. Yeah, absolutely. And to the academy 
credit, all academies, I think they have emphasized very 
strongly bystander training and the importance of bystander 
intervention. The surveys indicate that the self-report of 
people who are bystanders, that they do become involved. 
Obviously, a lot of sexual assault doesn't incur in front of 
somebody else. If it did, it would make it a lot easier to 
prosecute. But, yes, I think, you know, stepping in----
    Ms. Escobar. But the retaliation----
    Colonel Christensen. Yeah.
    Ms. Escobar [continuing]. Sometimes is--many times is not 
in secret, especially on social media.
    Colonel Christensen. Right. Right. And then I--and then 
they have to feel comfortable that when they come forward to 
leadership, say, I saw this--Boss, I saw this on whatever 
social media site. This is what they are saying about cadet so-
and-so and bring that to them. And I don't know if they have 
that confidence level.
    Ms. Escobar. Anything to add?
    Colonel Morris. Same thing. Social media has been a big and 
recent part of the emphasis, because both of the chatter as 
well as the sharing of images and that kind of stuff. And then 
bystander, same thing. It seems to be one of the most tried and 
true. You know, we show movies about, you know, accidentally 
spilling a drink on somebody to just break the situation, so 
the students then talk about that and realize that is 
appropriate to them and a legitimate expectation of them as a 
fellow student.
    Ms. Escobar. I yield my time.
    Ms. Speier. All right. Your time is expired.
    And we are going to thank both Colonel Christensen and 
Colonel Morris for their participation.
    We are going to take about a half-hour break so everyone 
can go vote, and then we will be joined by the Director of the 
Department of Defense, Dr. Van Winkle, and the three 
superintendents. Thank you. We are in recess.
    [Recess.]
    Ms. Speier. Welcome back, everyone. We are returning to our 
second panel today, and I want to introduce each of them. I 
know them well and have a great deal of respect for them as 
individuals. And hopefully, this will be a very valuable 
opportunity for all of us to get a new perspective on how we 
can address this problem.
    First on our panel is Dr. Elizabeth Van Winkle. She is the 
Executive Director, Force Resiliency, at the Office of Under 
Secretary of Defense for Personnel and Readiness.
    Our second panelist is Lieutenant General Darryl Williams, 
the Superintendent at the United States Military Academy.
    Third, Vice Admiral Walter Carter, who is the 
Superintendent of the Naval Academy.
    Finally, Lieutenant General Jay Silveria, who is the 
Superintendent of the U.S. Air Force Academy.
    We welcome each of you now to make your opening statements.

 STATEMENT OF DR. ELIZABETH P. VAN WINKLE, EXECUTIVE DIRECTOR, 
 OFFICE OF FORCE RESILIENCY, OFFICE OF THE UNDER SECRETARY OF 
              DEFENSE FOR PERSONNEL AND READINESS

    Dr. Van Winkle. Thank you. Madam Chair, Ranking Member 
Kelly, and other distinguished members of the subcommittee, 
thank you for having me here today to discuss the results of 
the DOD Annual Report on Sexual Harassment and Violence at the 
Military Service Academies.
    Two years ago I sat before you and pledged we would do more 
to end sexual assault at our academies. Two years ago, I told 
you how we were committed to promoting an environment where all 
were treated with dignity and respect. I vowed we would work to 
reinvigorate our prevention approaches.
    I meant what I said, yet I sit before you and deliver news 
too similar to what I reported 2 years ago. Sexual assault is 
on the rise again at the academies. While each of the academies 
developed and implemented action plans that were not yet fully 
in place for the current assessment, Department leadership was 
not complacent waiting for implementation, and therefore, 
another increase in rates is simply unacceptable.
    Preventing criminal behavior and other misconduct, 
providing care for service members, and holding offenders 
appropriately accountable, have been and continue to be top 
priorities. And yet our most recent data indicates we have far 
to go to eliminate this abhorrent crime.
    It is devastating to be sitting here again to deliver this 
most unwelcome report. Our data tells us that rates of unwanted 
sexual contact increased by varying degrees across the 
academies, all too high. Rates of sexual harassment also varied 
among the academies, but are also unacceptably high, 
particularly among women.
    The data also indicated that across the three academies a 
large majority of students think their senior leaders are 
making honest and reasonable efforts to address these 
behaviors, but not all do. These same students rate the efforts 
of their peer leaders much lower, and additional data showed 
declining rates for students watching out for each other to 
prevent these crimes.
    This tells us that despite our hard work, some cadets and 
midshipmen still feel empowered to disrespect and victimize 
others. And equally challenging, there are some who feel 
neither empowered nor responsible in their daily peer 
interactions to hold each other accountable.
    The vast majority of cadets and midshipmen are good people 
and will become the strong leaders our nation needs. Yet we 
must show them how to leverage their moral courage to create an 
environment where all can serve with dignity and respect.
    There is no single fix for this. We cannot blame our way 
out. We cannot train our way out. The Department, Congress, and 
our nation as a whole, has been challenged to crack the code on 
how to change behavior regarding sexual misconduct. But the 
Department of Defense, we are the ones who have been entrusted 
by the country to lead the way. We must lead, and we are 
working to do just that.
    We will change our approach. What we have done in the past 
may not be abandoned, but we must determine what needs to be 
done differently, what needs to be adjusted, and what needs to 
be implemented anew. We are analyzing the breadth of data we 
have, and we will continue to partner and collaborate with 
other experts in this field who have found strategies that show 
promise.
    We have already taken some steps. We have hired prevention 
specialists from the Centers for Disease Control and Prevention 
to inform our efforts and assessments. We are enhancing 
reporting procedures that will be available throughout the 
Armed Forces but geared towards the unique concern of our 
cadets and midshipmen and aim to address repeat offenders.
    We will refocus our efforts and look at the full life cycle 
of cadets and midshipmen from selection through to graduation, 
and work to target our approaches accordingly. Our focus will 
be to not only achieve progress, but to sustain it over time. I 
am optimistic our new direction will render intended results, 
and I sit before you today frustrated but resolved.
    I have been working in this field for over 20 years, 10 in 
the civilian sector and nearly 10 with the military. I left the 
civilian sector because I felt I was spending too much of my 
time fighting a system that seemed impervious to influence.
    I am committed to stay with the Department of Defense 
because I have the support of my leadership, and because I have 
witnessed our system make changes over the past decade to 
produce an infrastructure of policies, programs, and resources 
that have benefited our military members and are not found in 
the civilian sector.
    We are not there yet, but we are committed. No one has 
solved this, and if there were a single solution to eliminate 
sexual assault, we would have done it already. We are 
responsible for behavior change. We take individuals and we 
mold them, we instill courage where there may have been none, 
we impart discipline where there may have otherwise been 
disorder, we create lethal global warriors from young women and 
men who may have never even left their local communities.
    Eliminating sexual misconduct from the ranks remains a 
challenge, but one we refuse to run from. We will not tolerate 
it, and we will not stop until we get this right. We appreciate 
your concern and support as we work to protect the people who 
volunteer to keep our nation safe.
    Thank you for the opportunity to come and speak with you 
today, and I look forward to your questions.
    [The prepared statement of Dr. Van Winkle can be found in 
the Appendix on page 68.]
    Ms. Speier. Thank you, Dr. Van Winkle.
    Next, Lieutenant General Williams.

   STATEMENT OF LTG DARRYL A. WILLIAMS, USA, SUPERINTENDENT, 
                 UNITED STATES MILITARY ACADEMY

    General Williams. Madam Chair, Ranking Member Kelly, and 
distinguished members of the subcommittee, thank you for the 
opportunity today to talk about the very serious problem of 
sexual assault and sexual harassment at the United States 
Military Academy.
    I wish I were here to tell you how we have solved this 
problem at West Point, but I am not. Instead, I am here today 
because this abhorrent behavior continues to manifest itself 
within our ranks. Any case of unwanted sexual contact or sexual 
harassment is unacceptable.
    Our mission is to develop leaders of character for the Army 
who will fight and win our nation's land conflicts, and who are 
ready to lead in the crucible of ground combat. The issues I 
will discuss today have a direct impact on Army readiness. 
Sexual assault and harassment erode readiness and our ability 
to accomplish the mission.
    I am personally committed to preventing sexual assault and 
harassment, and I am resolute in my commitment to continue to 
seek solutions at West Point.
    While I am here to talk to you about West Point, I 
recognize this problem is not isolated to West Point and the 
Army. The increase in the number of cadets experiencing 
unwanted sexual conduct is unacceptable and troubles me 
greatly.
    These acts erode trust, are contrary to our Army's core 
values, and impact readiness. These are situations that no one 
should ever have to experience. As leaders, we must protect the 
welfare of the victims who trusted us, while at the same time 
holding the perpetrators accountable and appropriate for their 
actions in--as appropriate for their actions in accordance with 
due process of law.
    As we continuously improve our program, we must also focus 
on changing the culture to prevent these acts from occurring in 
the first place. To that end, we are open and welcome to forums 
such as these to find ideas we may not yet have considered. 
While much of what we see within the survey is troubling, some 
of the results are encouraging, and indicate our efforts so far 
having some effect on trust in our organization.
    Eighty-five percent of cadets surveyed indicated they 
believe the academy senior leaders are taking honest and 
reasonable efforts to stop sexual assault. The fact that cadets 
trust their leadership is a direct result of our continued 
efforts to address this problem. More troubling, though, is the 
lack of trust they have in their peer leaders. This is a 
cultural problem that we must address.
    When cadets first report to West Point, they bring with 
them a set of values developed over their past 18 years. Our 
job is to take these young men and women and mold them into 
leaders with the character that aligns with the ideals of West 
Point and the values of our Army.
    We frequently talk about our leader development program as 
a 47-month developmental experience. But when it comes to 
sexual harassment and sexual assault, we don't have 4 years to 
shape their behavior and attitudes. We must prioritize our 
prevention efforts early on in their cadet experience.
    Moving forward, we will strengthen our education efforts to 
provide cadets the knowledge and skills needed to define and 
address the behaviors that are occurring. We will also continue 
to address cultural challenges, like social media, and access 
to illicit materials that impact our population, with the goal 
of helping cadets think more critically about themselves and 
their relationships.
    Success in our prevention and education efforts must 
permeate throughout the entire West Point community. Every 
individual working or living at West Point needs to recognize 
his or her role in contributing to this cultural change. Thank 
you for the opportunity to share our work with the committee.
    I appreciate your feedback and helping us find a solution 
as we are in the business of developing leaders of character 
for our Army and nation. We must set and continue to enforce 
the highest of standards. I look forward to answering your 
questions.
    [The prepared statement of General Williams can be found in 
the Appendix on page 74.]
    Ms. Speier. Admiral Carter.

 STATEMENT OF VADM WALTER E. CARTER JR., USN, SUPERINTENDENT, 
                  UNITED STATES NAVAL ACADEMY

    Admiral Carter. Madam Chair, Ranking Member Kelly, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today on behalf of the United 
States Naval Academy.
    Our mission is to develop midshipmen morally, mentally, and 
physically, and to imbue them with the highest ideals of duty, 
honor, and loyalty. We have a responsibility to ensure that the 
brigade of midshipmen has the opportunity to develop 
professionally in an environment that fosters dignity and 
respect.
    Despite dedicated efforts by the Naval Academy leadership 
and the brigade, we continue to experience incidents of 
unwanted sexual contact within our ranks. I and the rest of my 
leadership team have actively sought out professional advice 
from the experts on the best strategies to reduce this scourge 
within our student body. While we have made some productive 
improvements, we must do better.
    We initiated our plan of action this past summer. It is a 
comprehensive approach from admission to graduation and 
includes the following four primary components.
    First, we continue our rigorous preadmission screening 
process, which relies on required teacher recommendations and 
police record checks to identify potential character challenges 
of those applying to the Naval Academy.
    Second, we continue to hone our sexual assault prevention 
programs. In addition to updating our student-led training 
program, this past year we launched an interdisciplinary 
evaluation of the entire 4-year leadership curriculum, pulling 
together all themes addressing life skills. This effort more 
closely aligned all programs and resulted in publishing a life 
skills handbook.
    Third, we have launched several initiatives to promote 
responsible alcohol choices, as we understand the strong 
correlation between alcohol use and unwanted sexual contact. 
Since we put these new initiatives into effect, we have 
experienced a 49 percent fewer alcohol-related incidents.
    Finally, we must continue to hold perpetrators 
appropriately accountable. All allegations of sexual assault 
are thoroughly investigated by the Naval Criminal Investigative 
Service and receive careful legal review prior to me deciding 
on a disposition.
    We are not where I want us to be, nor where the Navy needs 
us to be. The Naval Academy must produce leaders that not only 
treat others with dignity and respect, but also demand the same 
of those they lead.
    Thank you for your time today. I am prepared to address 
your questions.
    [The prepared statement of Admiral Carter can be found in 
the Appendix on page 89.]
    Ms. Speier. Thank you, Vice Admiral.
    Lieutenant General Jay Silveria.

  STATEMENT OF LT GEN JAY B. SILVERIA, USAF, SUPERINTENDENT, 
                UNITED STATES AIR FORCE ACADEMY

    General Silveria. Madam Chair, Ranking Member Kelly, and 
other distinguished members of the committee, I appreciate the 
opportunity today to discuss an issue that is fundamental to 
the health and safety of our cadets at the United States Air 
Force Academy, and of grave importance to our national 
security.
    Thank you for your dedication to confronting sexual 
harassment and sexual assault, misconduct that has no place at 
our academies or in our military, and for your concern about 
the well-being of our cadets and cadet candidates. I can assure 
you that these are concerns shared not only by myself and also 
by our dedicated staff, faculty leadership, and most 
importantly, the cadets.
    As Superintendent of the Air Force Academy, I am here on 
behalf of our 4,281 cadets and 203 preparatory school cadet 
candidates, as well as the faculty and staff that are 
developing them into the future of leaders of our Air Force. 
But I am also here as an academy graduate, as a leader of 
airmen privileged to wear this uniform for more than 33 years, 
and as a father of two young members of this same generation we 
are training and educating.
    From each of these perspectives, the results of the recent 
survey are disgusting. They do not reflect the standards we 
hold ourselves to as leaders. They do not reflect the core 
values of the United States Air Force or our academy, and we 
are committed to addressing these issues head on, to be an 
example for the Air Force, Department of Defense, and society.
    It is clear our past efforts have not had the effects we 
intended or expected. These results are unacceptable. There is 
no question, even one instance of sexual assault or sexual 
harassment at our academy is a problem. Far too many of our 
cadets have had experiences along this spectrum of harmful 
behaviors from sexual harassment to sexual assault.
    The survey data shows that our cadets have been harmed, and 
that too many feel they can't come forward for help and 
support. It shows that cadets have harmed the peers they intend 
to serve alongside in defense of our nation. The data does not 
show us exactly why these egregious acts occurred, but we know 
that these are people, not statistics, and that leadership is 
the solution.
    I am frustrated and angered by the results, but I will not 
rest in my leadership until we get this right. In addition to 
implementing direction from the Department of Defense and 
Department of the Air Force, we are taking action with several 
current and future programs I have highlighted in my written 
testimony that we can elaborate on today and provide detailed 
information on as requested.
    Holding perpetrators of these crimes appropriately 
accountable is key to our efforts. When a victim makes an 
unrestricted report of sexual assault, we make sure the victim 
is getting necessary care and support, and the Air Force Office 
of Special Investigations begins to investigate.
    In addition to courts-martial and administrative discipline 
tools, we have a cadet discipline system that allows me to 
disenroll cadets for misconduct, as well as boards of inquiry, 
typically used for officer discharges. For those victims who 
are hesitant to testify publicly, these processes give them a 
voice in a nonpublic setting while affording those accused of 
crimes their due process rights.
    In recent years, this committee has heard testimony from 
our academies' superintendents, from experts, and from 
survivors on our progress, or really lack thereof, on this very 
topic. I appreciate your continued vigilance on a serious 
problem that requires steadfast attention. Your oversight is 
rooted in a care for our cadets and our military that I 
wholeheartedly share.
    I also share your frustration, impatience, and anger that 
you may have for the results we have seen this year. I have 
personally met with many survivors, both men and women, one on 
one that come to me voluntarily. I have learned and will 
continue to learn a great deal about their survivor 
experiences. As a commander, leader, airman, and father, their 
stories and their faces rock me to the core. And my motivation 
to change this culture--and they are my motivation to change 
this culture and stop this crime.
    We invite you to come visit our campus, see our programs 
firsthand, please, and speak with faculty, staff, and cadets, 
who hope that through these interactions, we can work together 
towards improvements.
    Thank you for this opportunity to discuss a topic so vital 
to the future success of our academy and our military and to 
the health and safety of our cadets. I look forward to your 
questions.
    [The prepared statement of General Silveria can be found in 
the Appendix on page 100.]
    Ms. Speier. Thank you, General Silveria.
    I would like to begin by asking Dr. Van Winkle a general 
question. You have been in this area for a very long time. You 
have done a lot of research. You do a lot of analysis. In your 
experience, what percentage of victims are telling the truth?
    Dr. Van Winkle. Based on the data that we have, and this is 
Active Duty and at the service academies, we see about 2 
percent of the reports of sexual assault to be unfounded, which 
means that there is evidence that the crime did not occur. So 
it is a vast minority.
    Ms. Speier. So vast minority. It is 98 percent of those 
that are coming forward are telling the truth?
    Dr. Van Winkle. Well, what we know is there is a larger 
proportion where we have an unsubstantiated report, and that 
means there wasn't enough evidence to move forward with a case 
of sexual assault, but that is very different than a false 
report. That false report, meaning that the crime did not 
occur, is at that 2 percent.
    Ms. Speier. So one of the issues that I think we have to 
address moving forward is the fact that there are so many 
restricted reports, and they are restricted because of this 
fear of retaliation. I think that if we get to a place where 
that information is shared, maybe online with Callisto or some 
other company that provides that kind of benefit so that the 
victim can go online, put down information about their 
experience, photographs if they want, identify the perpetrator, 
and then if they see that that perpetrator is, in fact, 
responsible for conducting himself or herself in the same 
manner with others, they are more motivated either to come 
forward in an unrestricted report and hopefully rid the 
military of the predator.
    Let me ask the three superintendents: Have each of you 
spoken to your cadets and midshipmen about this report? Have 
you had an actual information setting in which you have 
provided them with this information?
    General Williams. Yes, ma'am, I have electronically through 
the whole corps. My commandant in the last week has. And I--we 
are doing a full West Point stand-down. There will be no 
classes. There will be no sports. There will be nothing but me 
talking to the cadets on the 25th of February. I plan to shut 
down everything and do what we call a stand-down.
    So I have not had the opportunity to talk to the cadets, 
but my commandant has in the last week. And I have talked and 
sent a note to--immediately after the report came out, I sent a 
note electronically to every single one of my cadets.
    Ms. Speier. Vice Admiral Carter.
    Admiral Carter. Madam Chair, I have. I have addressed the 
entire brigade upon their reformation after holiday break. And 
I rarely have the whole brigade together where I do not cover 
this topic. But we covered this topic based on this report, and 
they have heard the details of this report. And to be quite 
frank, the reaction from the brigade was also the same reaction 
that all of us have. It was one of shock. So I don't take that 
as anything that changes that, except the brigade was surprised 
by the results.
    Ms. Speier. General Silveria.
    General Silveria. Yes, ma'am. I have addressed the cadet 
wing about this report, and part of that, I told them that I 
was planning on discussing with them. Next week, I have 
sessions planned with all of the classes to discuss this 
testimony. Additionally, I opened up to all of them after I 
explained the report to send me emails, and at this point, I 
have so many that I can't get through.
    Ms. Speier. General Silveria, I am in receipt of an email 
from the vice commandant, which I would like to ask unanimous 
consent that we submit for the record. And I think the copy has 
been made available to you? Do you have it there?
    General Silveria. Yes, ma'am, I have it here.
    [The information referred to can be found in the Appendix 
on page 123.]
    Ms. Speier. So what troubles me about this email is it 
appears that there has been a crest that has been stolen at the 
academy, and I guess it is one of those pranks that happens not 
all that rarely.
    But the essence of the complaints, I guess, that have been 
visited on Colonel Campbell is that there is more interest in 
the concern about returning the class crest than in talking 
about the results of the survey of sexual harassment and sexual 
assault.
    The one part of this email that is deeply troubling to me 
that I want to read and get your comments on, is the last 
paragraph, in which he says, ``you cadet leaders''--``Your 
cadet leaders are not at fault for the information flow; I am. 
If you want a target, it is me. They have no control over--on 
this topic. If you are that passionate, my door is open. Come 
on in and we can discuss.
    ``If you want to attack from a platform or medium of 
anonymity, then have at it. You are a coward and we aren't 
listening. If you have a problem, bring a solution. There is no 
room in our Air Force for those not willing to own their 
opinions or positions.
    ``If you don't like this idea, you are free to leave. I 
will happily expedite your transition to the civilian world. We 
hold higher standards here. If you don't like them, move on. 
You don't deserve to lead our incredible airmen.''
    Do you have a comment about that?
    General Silveria. Yes, ma'am. If I can add some context, 
yes, it was a prank where the cadets, the freshmen, the fourth 
classmen had stolen the crest.
    Ms. Speier. I am not concerned about the crest.
    General Silveria. Yes, ma'am. And so in the effort to 
recover the crest, the cadet leadership was trying to find 
through where--who had taken the crest. And in that, there was 
a lot of conversation about the crest, and it was beginning to 
take over a lot of the conversation among the cadet wing.
    And so at the same time was the moment that I stepped in, 
and I addressed the cadet wing about these results and told 
them that I was going to testify. And so Colonel Campbell was 
very concerned that the cadets perceive that there was a 
perception that the crest was more important than the results 
that I had discussed.
    Ms. Speier. I understand all that, General. My concern is, 
one of the issues that we are dealing with is this fear of 
retaliation. And anonymity is often offered to these cadets in 
a restricted report because of their fear of retaliation.
    And the way I read that last paragraph, he is mocking those 
who are commenting about the fact that there is more interest 
and concern about the crest being stolen than about talking 
about this issue of sexual assault and sexual harassment in the 
academies. And the tone of that email is hostile.
    And for anyone--if I was a cadet at the Air Force Academy, 
which I would never have gotten into, but if I had--if I was a 
cadet, and I read that paragraph, I would know full well the 
last thing I would ever do is report a sexual assault.
    General Silveria. Ma'am, in this case, the anonymity that 
he is referring to is using anonymity to use it as a platform 
to criticize. And that cyberbullying is what was going on that 
he was addressing directly. We all have--at all of our 
academies, we all have social media platforms that are 
anonymous, and they continue to be a problem. There is all 
sorts of different versions of them.
    And so this anonymous platform was being used to be very 
critical, very negative, and in his view, very cowardice. It 
was not about the fact that they were--that they wouldn't have 
a chance to report something anonymous. It was about the fact 
that they were anonymously criticizing about that fact. Ma'am, 
we fully support the idea of the restricted report. We fully 
support the idea of Callisto and others to give cadets that 
opportunity to report anonymously.
    Ms. Speier. Okay. I don't know that I fully agree with you 
in terms of the evaluation of that paragraph, but let's move 
on.
    I want to see uniformity of benefits for the victims. I 
want to be able to say to each appointee that I make to the 
academies that you are all going to be treated alike if you are 
sexually assaulted or sexually harassed.
    So let me ask you this: Would each of you offer to a cadet 
or a midshipmen who has been sexually assaulted, either 
restricted or unrestricted, either confirmed or unconfirmed, 
the ability to take a sabbatical year? Lieutenant General 
Williams, just go down the line, if you would.
    General Williams. Madam Chair, I would. In fact, we do. We 
do that now. It is called a medical leave of absence.
    Ms. Speier. I don't know that we need to call it a medical 
leave of absence, but I think a sabbatical is something that 
doesn't take--carry with it a spin one way or the other.
    Yes, Admiral.
    Admiral Carter. Yes, ma'am. We initiated that program a 
number of years ago, and it is alive and well.
    General Silveria. Yes, ma'am. We have had it for a number 
of years and it functions very well, 6 months and for a year.
    Ms. Speier. And it is automatic if it is requested?
    General Silveria. Yes, ma'am.
    Ms. Speier. All right. How about a transfer to another 
academy, General Williams?
    General Williams. Ma'am, if it would help the victim and 
help them heal in this process, I would support it, yes, ma'am.
    Ms. Speier. But you don't have it presently, correct?
    General Williams. We do not, Madam Chair.
    Ms. Speier. Admiral.
    Admiral Carter. We have not gathered our thoughts together 
on the mechanism to do it. I am not opposed to it as 
Superintendent of the Naval Academy. I do think that we would 
have to understand that that would extend somebody's academic 
time, but if it benefited them to get through the undergraduate 
program at any of the service academies, I don't think any of 
us would have an issue with it.
    Ms. Speier. Thank you.
    General.
    General Silveria. Ma'am, I completely agree. If it 
benefited a victim, we don't have that mechanism in place right 
now, but if it benefited the victim, then I would fully 
support.
    Ms. Speier. All right. And how about--I know at least one 
of the academies have taken a public position that you will 
not--there will be no action taken against you for collateral 
violations if you want to file a sexual assault or sexual 
harassment report. Is that true for all of you?
    General Williams. Yes, Madam Chair.
    Ms. Speier. Has it been made public to all of the cadets?
    General Williams. Yes, Madam Chair.
    Ms. Speier. Admiral.
    Admiral Carter. Madam Chair, we have the same program and 
we--this is one of those events where collaborating and seeing 
how the Air Force did it presented a much better idea than how 
we were doing it. So we have incorporated their program and it 
has been announced to our brigade.
    Ms. Speier. So this is the first year it will be 
operational?
    Admiral Carter. Well, it is a slight difference. We don't 
hold any of the victims to collateral misconduct during the 
course of the investigation. But in light of the way we see how 
Air Force did it, if the knowledge of misconduct comes up 
during the course of the investigation, never be held against 
the victim at all. We have been previously revisiting some 
misconduct after adjudication, but not to a separation level. I 
like the way I saw the Air Force Academy was doing it better, 
and we have just instituted that.
    Ms. Speier. All right.
    General.
    General Silveria. Ma'am, we did start that, initiate that, 
as we call it, a safe-to-report policy that ensures that--no 
collateral misconduct, that there is--no charges would be 
brought or any, you know, any retribution in any way for some 
misconduct if they were a sexual assault victim.
    Ms. Speier. And, finally, I think one of the admirals--one 
of the superintendents that I have spoken to in the last few 
days indicated that you are about to implement recoupment from 
first- or second-year cadets or midshipmen. Historically, it 
has only been juniors or seniors. And I want to know to what 
extent we can make that something that is going to be used in 
each of the academies across the board where there is a 
conviction.
    General Silveria. Ma'am, I will start. That was me. We, as 
you know, all of us seek recoupment for the last 2 years, but, 
yes, we have changed that. So in the first 2 years, if you 
commit serious misconduct, in this case, sexual assault or, you 
know, drug offense or something, that you are disenrolled for 
serious misconduct, then we will seek recoupment.
    Ms. Speier. Admiral.
    Admiral Carter. We have not explored that possibility. We 
are now aware of it and we are very interested in understanding 
how it works exactly. It should be the same. And as you know, 
it is a recommendation by us to our Secretary of the Navy or 
our service secretaries for that eventual decision. But I am in 
full support of that option.
    General Williams. Madam Chair, I would be open to that as 
well, but we have not currently been in that space.
    Ms. Speier. All right. And, finally, Dr. Van Winkle, having 
gone over those various services for the--and benefits for the 
victims, do you have any comments that you would like to make 
about them?
    Dr. Van Winkle. No. I would just say that at the--on the 
OSD [Office of the Secretary of Defense] side, we obviously 
understand that each of the academies have unique cultures and 
may have some differences in their policies and protocols. But 
where there is a promising practice, we support standardization 
across the academies.
    Ms. Speier. All right. Thank you.
    Mr. Kelly.
    Mr. Kelly. Thank you, Madam Chair.
    The best way to prevent these crimes from happening is to 
prevent those with character issues from entering the academies 
to begin with. If each of you, starting with you, Dr. Van 
Winkle, can tell me how we can improve the nomination process 
as Members, and you as the academies who is overseeing them, to 
ensure we have a good assessment of the candidate's character.
    Dr. Van Winkle. Thank you for the question.
    As you heard in my opening statement, we are looking at the 
entire life cycle of the cadets and midshipmen, including 
selection into the academies. This is not to say that the 
current selection criteria is inadequate. What we are looking 
at, and we are still in the infancy stages of evaluation on 
this, is whether there are additional metrics that we could use 
that get to that moral development and moral character that we 
are looking for.
    So we are, right now, just in the evaluation stage of the 
data and what we are looking for and what metrics might be 
feasible. But, again, it is important to note that we are in no 
way saying that the selection criteria be changed. It would be 
more of an enhancement.
    General Williams. Thanks, Ranking Member Kelly.
    I think this is a place where we owe you a better model. 
Currently, when we admit cadets to West Point we know very well 
their academic potential based on their academic performance, 
their SATs, ACTs. We require them to take a physical readiness 
aspect.
    What is missing, in my humble opinion in 7 months as the 
superintendent, is more there. We owe you a better template. We 
ask principals, teachers to write essays about cadet X, Y. I 
think it is okay, but I think it could be more robust with more 
rigor in that space.
    Mr. Kelly. Admiral.
    Admiral Carter. Sir, this is a tough problem to figure out, 
but I will tell you what we are currently doing, where I think 
we could maybe do a little bit more. We put a great deal of 
stock in the teacher evaluations of prospective midshipmen. We 
often pick out nuggets within those evaluations that are very 
worthy for us to look at.
    The interviews that we do, we have Blue and Gold 
representatives. They represent me in the admission process 
and, of course, interviews that either you or your staff do for 
your prospective candidates from your voting districts. We look 
at police records.
    I would like to be able to tell you we have the access to 
look at everybody's social media background. We certainly do 
that for a number of the midshipmen that come to the Naval 
Academy, but it is not 100 percent. That is a space that could 
probably be looked at more.
    And I will share with you that on occasion, we get an 
anonymous letter about something that might have happened. And 
when that happens, we take that very seriously, and we set up a 
character review board on that individual. So, again, we are 
doing as much as we can right now, but I think we could still 
do a little bit more.
    Mr. Kelly. And, General, real quickly.
    General Silveria. Yes, sir. Sir, I think I would agree that 
we owe you a better--that we need to work together better on 
that with your staffs and with your nomination processes. That 
all of us need to focus on qualities as opposed to 
qualifications of an individual. And just like Admiral Carter 
points out, we all look for the slightest hints and clues from 
teachers, from coaches, from recommendation letters, we look 
for the slightest, and we pursue those, whether it is social 
media, police, you know, we pursue any slightest lead that we 
have if there is any concern.
    Mr. Kelly. The only thing I will say, and I know we already 
have issues with this resource-wise and getting security 
clearances for enough people, but that is much more in depth 
and they are much better qualified. So I don't know if we can 
morph that into something else or do something a little 
different, but sometimes those folks, having gone through a 
security clearance, may be able to do a similar thing that goes 
beyond what just the teachers say.
    As a former district attorney, I am aware how challenging 
sexual assault offenses can be to prosecute. There are a litany 
of reasons why victims don't come forward, some are 
retaliatory, some are a whole different range of options of why 
they don't come forward.
    Can you explain the current options you have available to 
hold the offenders accountable? And I will start with you, 
General. What can you do as a commandant to hold a potential 
offender--an offender accountable?
    General Williams. Ranking Member Kelly, thank you. The 
Uniform Code of Military Justice, as we spoke earlier, gives me 
the options and tools I need as a commander. Short of that, you 
have nonjudicial punishment. I have administrative actions I 
can take as well, as well as working at echelon with my 
commanders.
    So the chain of command in this space is very valuable in 
setting the right tone. Commanders set tone and expectations in 
a command, and that is the tools that I most cherish in this 
space.
    Mr. Kelly. And I would also just encourage--encourage you 
to understand that there is a code of moral and ethics and 
honor at each of the academies, and sometimes you may not be 
able to prove an unsubstantiated report against an offender, 
but other things they are doing makes them unfit to serve as an 
officer in the military service. And I would just encourage 
you, when you have that opportunity, you can still have that 
person go away if they have a course of conduct that you can't 
substantiate the sexual assault, you maybe can do that 
otherwise.
    Developing morally and ethically strong officers is the 
primary mission of all the service academies. Trust is 
tantamount to good military orders, and especially among 
leaders. How do you incorporate character development into the 
curriculum at the academies, and if you can real quickly just 
tell me that. Character in the curriculum.
    General Williams. Ranking Member Kelly, we have the West 
Point leader development system, which is focused primarily on 
character. It is ingrained in all things we do, whether it is 
in academics, whether it is in sports. Character is my number 
one line of effort at the United States Military Academy. So we 
do that both in terms of curriculum, in terms of pedagogy, but 
also in terms of practically how we do it day-to-day from a 
practitioner standpoint as well.
    Admiral Carter. Sir, we have it embedded in our leadership 
curriculum, but recently, just over the last couple of years, 
it has taken us about 2 years, that we have completely revamped 
our aptitude measuring system, which now encompasses everything 
except academic performance and physical education performance 
so that we can look at the character development specifically 
of our midshipmen. They actually get a discrete grade in a very 
subjective system that uses everything from peer ranking to 
rankings by others that are in their sports teams, their clubs, 
and ultimately the officer that is directly over them. So this 
is relatively new and we find good progress.
    General Silveria. Sir, we have a center for creative 
leadership--a Center for Character and Leadership Development, 
and we use that as an integrating function for character 
elements across the curriculum, across the military training, 
and across the athletic department so that it is integrated 
everywhere that a cadet interacts; there is character 
development and there is leadership responsibilities.
    Mr. Kelly. And the final question, and I will start with 
you, Dr. Van Winkle, but I want to preface this with a 
statement. You guys are accountable to get this right and to 
make this the right thing. Our job is to make sure you have 
every tool available to you to make sure that we take care of 
each and every soldier and so that we don't have one sexual 
assault, especially not a sexual assault that is not reported.
    So, Dr. Van Winkle, and each member, what tool can we give 
you that will help you do that? And if you need to do that in 
writing later, I am fine. But what tool can we give you as 
Congress that helps you to do this mission?
    Dr. Van Winkle. I can respond right now generally that your 
partnership is extremely important. I do feel from the data 
that we see that our infrastructure is sound. We have some 
evidence that when somebody does make that courageous decision 
to report, that our systems that are in place are good systems. 
Eighty-one percent of the service academy students who came 
forward to make a report said that they would make the same 
decision again.
    However, we have too few people reporting, and we have an 
issue in terms of our culture and climate, and that we need to 
look at our strategies. And we certainly appreciate your 
feedback on that as our partners in this space.
    General Williams. Ranking Member Kelly, 273 young men and 
women spoke to us on this survey. You have given us what we 
need, you have given us the resources. It is my responsibility 
as the superintendent at West Point to take care of the sons 
and daughters that you have given us. You have given us what we 
need. We need to get an action plan and come back to you and 
talk to you how we are going to fix this.
    Admiral Carter. Sir, we are developing a multifaceted plan. 
I don't know that I need to ask for more resources or more 
capability in terms of us owning it, which we need to do. And I 
think that is what you are hearing from us today. I have been 
the superintendent for 5 years, and I have testified in front 
of this committee before. And as Dr. Van Winkle said, I 
committed myself to trying to improve in this.
    I am frustrated. And I think that we can't educate our way 
out of it, we can't train our way out of it. The accountability 
piece is what is going to move the needle on this. And I am 
committed to getting that part better and more right. I think I 
have the resources to do that. But if we come up with something 
that we could ask you for, we are going to send you a note, 
sir.
    General Silveria. Sir, I have the same sentiment. I have 
the resources. I have the policy that I need. What I need is to 
continue to build on the culture that I own and I am 
responsible for as the leader. And it is clear from the survey, 
one of the major areas that we have to work on is the peer-to-
peer relationship. And we are going to take that on. We already 
have some plans to do that, and I will come back to you if I 
need resources. But right now, sir, I have the resources I 
need, but it is my responsibility as the leader to execute 
this, and I do own this.
    Mr. Kelly. Madam Chairman, I yield back.
    Ms. Speier. Thank you, Ranking Member.
    Since you have indicated that you have a resource issue 
with reviewing the social media of applicants, why not ask the 
Blue and Gold Officers to do that as they are spending time 
interviewing the potential candidates?
    Admiral Carter. I think we could certainly incorporate 
that. In certain districts, it is just going to be a little 
more time consuming, and I don't think there is anything that 
prevents us from doing that. I don't think there is any legal 
reason why we can't do that, so we will explore that.
    Ms. Speier. All right. Mrs. Davis.
    Mrs. Davis. Thank you, Madam Chair. And going to the social 
media situation, and I know that--I think, Dr. Van Winkle, you 
mentioned this as well. I remember a hearing that we held 
several years ago actually, and General Neller was there, and 
we asked that question basically. Are you monitoring Facebook 
and Twitter, every possible account that a student has? And at 
that time, quite honestly, they weren't.
    And I know I had a discussion with the general just 
recently about this, and it still sounds to me like they are 
not doing as much as they could be doing in general recruiting, 
and so I think when it comes to the academies as well. I am not 
suggesting that that is a panacea here. But on the other hand, 
I think even from a sense of entitlement that somebody might be 
expressing on Twitter, which isn't blatant, I guess I would 
read that and I would, you know, want to know a little bit 
more.
    And so I am really hopeful that if there are problems, if 
there are barriers, let's address them, let's figure it out. I 
can assure you that we don't have a barrier when we hire 
someone in our office. We let them know that we are going to 
take a look at their accounts.
    And I just think that is important. I think it is important 
for young people to know that for their future it is better, 
and then not engage in that kind of behavior, even if they 
think it is, you know, just cool. So I hope you do that. And 
that, you know, could be helpful.
    I also wanted to ask, I believe Admiral Carter, you 
mentioned that you thought you were getting at the alcohol 
problem or you were seeing improvements. Is that right, sir? 
What are you doing, specifically?
    Admiral Carter. Yes, ma'am. What we have done is, again, a 
multifaceted approach. We went on this campaign in front of the 
whole brigade to make them understand that this is part of 
their professional life. We went to health and comfort 
inspections in the large dormitory that they all live in called 
Bancroft Hall. We have made sure that there is no alcohol 
inside the dormitory. And there is a very well-stated policy 
that if you are found with alcohol in your room, it is a 
dismissal, meaning you will be separated from the Naval 
Academy.
    We put together a joint task force that actually helped in 
putting together the education programs to show midshipmen why 
responsible use of alcohol was needed. We put together a 
program called the Midnight Teachable Moments, where we 
actually use alcohol under controlled circumstances to show 
midshipmen exactly what the results of those are.
    So those are just some of the things that we have done. The 
midshipmen themselves created a Guardian Angel program, these 
are the seniors. So they go out in downtown Annapolis, which is 
walking distance from our campus----
    Mrs. Davis. Right, I've heard of that.
    Admiral Carter [continuing]. And they are preventing things 
before they happen. Now, I will share one example with you. We 
had an incident a couple weeks ago where a midshipman got out 
of hand with alcohol and got into a little bit of an engagement 
with one of these Guardian Angels. We secured liberty for the 
entire brigade of midshipmen for 2 weeks. So one alcohol 
incident was now treated to punish the entire brigade. I can 
tell you, the brigade got that message very quickly. They had a 
hard time understanding it. But we are now enforcing that type 
of part of the program. And then, of course----
    Mrs. Davis. And do you think--I am sorry to sort of 
interrupt, but do you think that that is being heard in sort of 
the same context for men and women?
    Admiral Carter. I don't have the breakout between men and 
women. I know men at the Naval Academy have a higher tendency 
to be involved in binge drinking than women. But in our case, 
72 percent of all--this is by survey--of all of our unwanted 
sexual contact has involved alcohol. I am not blaming alcohol 
or saying if you take it away completely that these things 
won't happen, but I know reducing that will have an impact.
    Mrs. Davis. It does have--uh-huh. And the ``Safe to 
Report'' that you mentioned--because I think that--my 
understanding is that there are a number of women who feel that 
they are held accountable if they had a few drinks, and 
therefore, they will not report a sexual assault or harassment 
because they are then transferred or something happens to them 
that is negative. So the ``Safe to Report'' allows them to 
report without that, is that correct, in terms of drinking?
    Admiral Carter. Ma'am, I have never separated a female 
victim for collateral misconduct.
    Mrs. Davis. Okay. And, finally, we talk about peer leaders 
and how important they are. Are we doing the same kind of 
climate assessments of their leadership, so that if it is 
determined that in fact they are not leading well, that their 
advancement is hampered--called into question? How actively are 
you doing that? How much--do they know you are doing that? And 
how many people have you stopped in their career ladder because 
of that behavior?
    Admiral Carter. This is exactly why we created this new 
aptitude measuring system. Part of that is to measure their 
leadership capability, whether they are a junior or a senior. I 
want to make sure that I didn't have anybody flying under the 
radar that was meeting all the minimums academically and 
physically and everything else looked okay because they didn't 
have a conduct record.
    This is a chance to have their peers and those that know 
them best tell us about them. And I suspect, even though this 
is relatively new, we are going to be putting midshipmen in 
front of us that have problems that might not have shown up 
before. So I am optimistic about this new approach for how to 
look at that measuring system.
    Mrs. Davis. Right. Thank you. Because sometimes people are 
achieving, but that doesn't mean that they are acting 
appropriately. Thank you.
    Ms. Speier. Thank you.
    I just want to make a point here that I think is important. 
We are talking about alcohol, and we would be amiss if we 
somehow want to place the blame on alcohol, because in the 
actual survey, at West Point 45 percent of the women indicated 
that the alleged offender had been drinking alcohol. So almost 
half, but not a significant majority of cases.
    At the Naval Academy it wasn't broken out quite the same 
way, it just said nearly two-thirds. Sixty-four percent 
indicated that they or their alleged offender had been drinking 
alcohol. And then at the Air Force Academy it was 53 percent 
who indicated the alleged offender had been drinking, and 51 
percent indicated that they had been drinking. So maybe it is 
half, but it is not 65, 75, 85 percent. So I don't want us to 
lose sight of that fact in looking at this issue.
    Mr. Abraham.
    Dr. Abraham. Thank you, Madam Chair.
    Admiral, back to you and Mrs. Davis' exchange, the Navy has 
been recognized for its prevention program in sexual assault 
and sexual prevention. It is evidently doing some good stuff. 
Was some of that that you mentioned some of the highlights of 
that program, or would you wish to elaborate on maybe a couple 
more that the committee could learn from?
    Admiral Carter. The program that we have at the Naval 
Academy is called SHAPE, it is Sexual Harassment and Assault 
Prevention [Education]. It is evidence-based education that has 
been developed by experts, we have been working on it for 12 
years. It is 20 hours of education and training across 4 years, 
it starts on induction day. It is peer-led, small-group session 
with fleet mentors and it has been updated. We have peer 
educators. We have well over 130 that apply for 80 positions, 
including varsity athletes, leaders within the brigade. They 
receive an extensive 2-week program, and they lead nine 
syllabus sessions during the course of each year.
    We also have guides that are part of this program. These 
are midshipmen embedded into each of the 30 companies, each 
company is about 150 midshipmen, 2 per company, and they are 
that resource that knows when somebody is having a problem, can 
say, hey, here is where the resource is where you can get 
counseling or make a report. They also receive an extensive 2-
week training program, and typically we have about 130 
applicants for that. So that is just a thumbnail of what that 
education program looks like.
    Dr. Abraham. And, General Silveria, is your HRT [Healthy 
Relationship Training] and CHiPS [Cadet Healthy Interpersonal 
Skills] program similar to that? Give me a little G2 
[intelligence] on that.
    General Silveria. Sir, very similar in the elements that 
they have in that we all know at this point that small group in 
this subject matter works best. While initially when our cadets 
and our midshipmen arrive, we need to get a lot of information 
out quickly. But we move to--CHiPS is the Cadet Healthy 
Interpersonal Skills, and it was recognized as a best practice 
to the committee. And we have shown with evidence informed of 
how that is beginning to change behavior in surveys after they 
have had some of that.
    Healthy Relationship Training, sir, is--a lot of the 
programs that we have done in the past have been about what not 
to do. And so we tell someone that they can't do this and they 
can't touch this and they can't do that and they can't do it 
without consent. Healthy Relationship Training takes a 
different approach. It teaches them how to have a healthy 
relationship between two people. What consent is, what 
boundaries are. So it is an approach of how to, what to, how to 
have a healthy relationship. So those are a little bit 
different, sir.
    Dr. Abraham. Dr. Van Winkle, I will take this for the 
record, if you need, you can certainly answer it if you can. 
But I was looking at your resume and it is quite impressive, 
but you have a Ph.D. in applied experimental psychology. On 
these predators, or whatever we want to call these people that 
do these terrible things to these survivors, have you 
analyzed--is there a blip on the radar screen in something they 
have done in a personality previously? Just that marker that 
won't certainly definitely say that they are going to go this 
particular way, but maybe they might?
    Dr. Van Winkle. I would have to take that for the record. 
It is not within my area of expertise, and certainly there is 
research to predict offending behaviors. It is certainly not a 
settled science, but I can take that for the record and get you 
the information we do have on that.
    [The information referred to can be found in the Appendix 
on page 127.]
    Dr. Abraham. I would appreciate that. As a physician, it 
would be interesting.
    And my last question, and, General Williams, I will send it 
to you, and we can certainly get the others' involvement. On 
the last panel, Mr. Christensen mentioned in the last--one of 
his talking points, if I understood that right, that athletes 
are not held to the same level of accountability as other 
cadets. Now, is that true?
    General Williams. Congressman, that is not true. All 
athletes, cadets, are handed the same standard at West Point, 
and I am sure the other academies as well. There is no 
sanctuary for athletes at the United States Military Academy.
    Dr. Abraham. I understand. I see the others nod.
    Madam Chair, I yield back.
    Ms. Speier. All right. Mrs. Luria, you are next. Is it that 
you would like to postpone?
    Mrs. Luria. I will--I don't----
    Ms. Speier. All right. Let's then move on to Ms. Escobar.
    Ms. Escobar. Thank you, Madam Chair.
    Dr. Van Winkle, so in the report, one of the reasons why 
women did not choose to report was, quote, that they would take 
care of the problem themselves. Does this indicate that there 
is a problem in the actual reporting process or that it is 
cumbersome or that--what are your thoughts about that? Why--or 
just a sense that it is, you know, too painful to go through 
the process.
    Dr. Van Winkle. I appreciate the question. The data doesn't 
get at exactly what they mean by when they say that they took 
care of the problem themselves, either by avoiding or 
confronting the person. We know a few things, though, from our 
focus groups. We do go out every other year to talk to the 
cadets and midshipmen. We talk to them about the survey 
results. We ask them questions about it. And often what we see 
in our data is the reasons for not reporting are often very 
personal reasons, less to do with the system in place, but much 
more to do with wanting to forget about it and move on.
    We also have concerns within the academy about gossiping 
and peer response, which again, speaks to what we are trying to 
do when we are engaging the cadets and midshipmen themselves. 
And it also looks a little different than what we see in the 
Active Duty.
    What we hear in the focus groups is freshmen and sophomores 
often say they would hesitate to report because they don't want 
that to define them. They are only there for 4 years. Juniors 
and seniors often say they don't want to report because they 
don't want the investigation to follow them into the Active 
Duty or be defined as they move into the Active Duty by this 
report.
    And all of them talk more about concerns about peer 
reaction than, again, barriers in the actual system that is in 
place. And I mentioned the data point that when we do get folks 
to come forward and report, from our survey data, 81 percent 
said that they would make the same decision again. It is 
getting them to come forward and report. That is a challenge we 
are trying to address.
    Ms. Escobar. That peer reaction, that is very interesting. 
And I feel like that is where we as a society, whether it be in 
the military or in the private sector or public sector, where 
people need to feel accommodated and supported by their peers, 
or that their peers will stand up to that retaliation. So we 
have clearly still got a long way to go on that front in the 
military. Thank you so much.
    To the superintendents, so the four focus areas were 
mentioned, the promoting responsible alcohol choices, 
reinvigorating the prevention of sexual assault, and the third 
one I am very curious about, enhancing a culture of respect. 
Could each one of the superintendents just briefly tell me how 
you are doing that?
    General Williams. Congresswoman, yes. So as my colleague 
mentioned, we have a Simon Center for Professional Military 
Ethic as well. So I have an organization within the West Point 
that is charged with designing character in this space about 
trust. But the folks that really are going to get at this daily 
are the cadets, our tactical officers, each company. We are 
organized at West Point into company teams. In each one of the 
companies there is a captain, a commissioned officer, and a 
senior noncommissioned officer with that company, and then our 
coaches and also our rotating faculty.
    So all of those folks emulate what it means to be--what 
respect looks like, what it means to be an officer or a cadet 
in good standing. So by being good role models. But more 
importantly, they have real conversations.
    Last week, and it wasn't because of a result of this panel, 
but I witnessed a--we had 119 classes last Wednesday during the 
commandant's hour, what is called a Leader Challenge three, 
where we had cadets, the company tactical officers, the 
academic professors, led by the cadet leadership. Well, they 
were talking about real issues. They were talking about sex and 
healthy relationships that was mentioned earlier.
    And so what is important is you get the cadets, the 
faculty, the coaches, all of them pulling the same way in this 
area. It can't be just the cadre, it can't be the cadets doing 
this. It requires a comprehensive approach across the academy.
    Admiral Carter. I will just briefly give two examples. One 
is this life skills handbook that I mentioned in my verbal 
testimony that we have now initiated. It not only dives down 
into this understanding of what dignity or respect means from a 
midshipman perspective, it also helps redefine that for all of 
our influencers. So our coaches, our faculty, our staff, our 
sponsor parents. I think it is really critical. And that is 
built into our in-classroom curriculum.
    And, finally, Sheryl Sandberg came and spoke to the Naval 
Academy in 2013, and it is where she coined the phrase ``lean 
in.'' And the Naval Academy has taken on ``lean-in circles,'' 
and it is really starting to grow even more. There are 
approximately 200 midshipmen that meet in 12 different circles, 
and they cover every tough topic of what it means to be a 
professional. Some of them are all women, some of the circles 
are all men, some of them are mixed. I think this is a 
grassroots growth program that we can continue to cultivate. 
And, by the way, we have fleet mentors in there, so they are 
helping them guide the conversation.
    General Silveria. Ma'am----
    Ms. Escobar. My time has expired. Thank you very much.
    Ms. Speier. General, you can respond.
    General Silveria. Ma'am, for us what that means is that we 
are looking about the whole person here. It is not just about 
dignity and respect regarding another gender in the area of 
sexual harassment or sexual assault, because what we have to 
teach is that discrimination in all manners, whether it is 
race, religion, background, sexuality, any discrimination in 
any way takes away and degrades at that dignity and respect.
    So we go out of our way to support and encourage a number 
of affinity groups in the areas of LGB [lesbian, gay, bisexual] 
and a number of race groups and ethnic groups that allow them 
and the cadets interact in that way. I mean, just Friday night, 
a couple weeks ago, I was with the Jewish cadets, as an 
example. And so we have to continue to show that richness of 
diversity. And I have spoken a lot about that to my cadets, 
specifically about that richness of diversity.
    We all have remarkably diverse campuses and remarkably 
diverse student bodies that are continuing to grow that more. 
That is what we are referring to.
    Ms. Escobar. Thank you.
    Ms. Speier. Thank you.
    Mr. Bergman, you are next.
    Mr. Bergman. Thank you, Madam Chair.
    General Williams, I want to make sure I got this right. 
Cadets lack trust in peer leaders? Did I get--could you just 
expound on that for me, please?
    General Williams. Congressman, thank you. Yes. The survey 
suggests that cadets do not have the same respect or trust, and 
this is about accountability. Part of being a professional, 
whether it be an airman or--is about stewardship. And so they 
are struggling with, depending on what their class is, 
ownership for each other. This is a part of what we do in our 
military--the ethos of our culture, the Army culture.
    So the cadets work very hard in their 47-month experience. 
They understand General Williams or Captain Smith, who is their 
company tactical officer, but as they develop and are learning 
to take ownership for their profession, they have a hard time 
sometimes holding each other accountable.
    Mr. Bergman. Is that something that has happened over time, 
or because of their high school experience they are used to--
they are not used to the hierarchy that maybe some of us who 
are older and went to high school, you know, decades earlier, 
where now everybody feels as though they--you know, the 
participation trophy mentality?
    General Williams. Congressman, I think that is part of it. 
We are taking folks from all over America, and it is a tough 
transition for some. Some need 47 months, some need a little 
longer than 47 months to make that transition.
    Mr. Bergman. So since we are talking about--we got Blue and 
Gold. Do we have black and gold? And what does the Air Force 
have?
    General Silveria. Prop and Wings Officers, sir.
    Mr. Bergman. Okay. So the point is, could any or all of you 
just describe the--is this Blue and Gold or black and gold or, 
you know, Prop? Is that a volunteer position? Is it a paid 
position? Tell us a little bit about who these people are and 
how much time they have to devote to, if you will, digging into 
the background of an applicant?
    Admiral Carter. Sir, I will answer first. Our Blue and Gold 
Officers are representatives of the superintendent but work 
through our admissions department. They are volunteers. They 
are not always Naval Academy graduates. They are in every 
voting district throughout the country. They are over 2,000 
strong. And they are the eyes on, they are the validation of 
who we are looking at, beyond just what we see on paper, the 
personal statement, the teacher recommendations, the grades, 
all of it.
    Mr. Bergman. Yeah, I don't want to dwell on this, but the 
idea is they are volunteers?
    Admiral Carter. Yes, sir.
    Mr. Bergman. So their time--they are working probably a 
full-time career doing something else, and because of their 
passion for the service academies, they have volunteered their 
time to interview, to interact with, et cetera, et cetera, and 
to advise potential----
    Admiral Carter. And they are required to get training every 
periodic moment--or every period of time, about 5 years, so 
they understand what we are looking for.
    Mr. Bergman. Okay. And then one final question that any or 
all of you can answer. Is there any--or maybe, Dr. Van Winkle, 
is there any comparative data to other nonmilitary, your basic 
public, private colleges and universities, as to the type of 
behavior, the type of at-risk behavior, if you will, that the 
18- to 20-year-olds who are in those first couple of years, I 
mean, is there comparative data out there that says the service 
academies have more of a problem than XYZ college or 
university?
    Dr. Van Winkle. I can speak to that in general terms. We 
don't typically have a good comparison point in civilian 
colleges and universities, nor do we compare ourselves with 
them. Certainly our mission space is different, our 
expectations are different, our selection criteria is 
different.
    Mr. Bergman. But if we were just, you know--and I know my 
time is going short here. The idea is, two friends graduate 
from high school together, one goes to an academy, one goes to, 
you know, some other school. They come in, they are matched 
ideally, if you will, in their experience, their outlook, their 
education, everything, they are a match, but then they split 
and go down two different educational paths.
    I am wondering, is the behavior of the individual who 
chooses something other than a service academy, are we--do we 
know, are there differences?
    Dr. Van Winkle. What we do know in looking at colleges and 
universities comes from a 2015 study sponsored by the American 
Association of Universities, which looked at 27 colleges and 
universities across the country. Looking at those rates, 
comparing them to ours now, which again are slightly apples and 
oranges in terms of metrics and scientific methods behind it, 
we are about on par. But as I mentioned, we certainly hold 
ourselves to a higher standard.
    Mr. Bergman. Well, thank you very much. And I yield back.
    Ms. Speier. All right. Dr. Van Winkle, you had indicated 
that of those that do come forward, 80 percent of them are 
happy with the way they were treated. Is that correct? Is that 
how you put it?
    Dr. Van Winkle. No. For clarification, I would say that 81 
percent--and this is from the survey, so this is an estimate--
--
    Ms. Speier. Right.
    Dr. Van Winkle. [continuing]. Of those who came forward and 
reported would make the same decision to report again.
    Ms. Speier. Thank you for that clarification.
    What I think is important for us to point to, and it is 
true in each of the academies, it is probably most true at the 
Air Force Academy, is that women who have not come forward to 
report do not have a high confidence that they will be 
protected.
    At the Military Academy, 55 percent of the women indicated 
they would trust the academy to a large extent to ensure their 
safety. At the Naval Academy, it was 46 percent. At the Air 
Force Academy, it was 39 percent. So that would suggest to us 
that there is not the confidence in the academy leadership that 
their safety will be ensured if only half or less than half 
have confidence in it. So that is something we should drill 
down about later.
    Mrs. Luria.
    Mrs. Luria. Okay. Thank you for being here to testify 
today. And I am trying to go through, you know, some of the 
comments that have been made and rectify these, you know, in my 
mind versus my personal experience, being that, you know, I 
attended the Naval Academy and also spent 20 years in the 
fleet, and as a commanding officer having to deal with these 
types of situations for sailors who worked for me.
    And there are several comments that have been made, but, 
you know, I wanted to kind of touch on this in the setting of 
the hearing because Admiral Carter and I discussed it in my 
office earlier this week was, you know, how does this compare 
relative to the fleet or to our Active Forces? And then, you 
know, are there any lessons that have been done more 
effectively within the fleet that we think we should be 
transferring back to the academy setting?
    And I will start with you, Admiral Carter, since we already 
touched on that.
    Admiral Carter. I certainly think there are things to learn 
from the two living conditions and the demographics and the age 
group. I think we could take ourselves down a dangerous path if 
we think that the 17- to 21-year-old demographic of the fleet 
is the exact same representative of what we see at the Naval 
Academy.
    Mrs. Luria. But, I mean, myself in command, and I know 
yesterday when we spoke, you said you had been in command in 
some capacity since 1999, and then you were the XO [executive 
officer] when we served together on Truman shortly after that. 
That is the demographic, at least from my experience, where 
most recently these reports come in as far as fleet sailors as 
well. So why do you consider there to be a difference?
    Admiral Carter. The enlisted sailors that are coming in, 
and that would be the demographic we are looking at, they are 
changing, very different than when you and I served on Harry S. 
Truman 20 years ago. They are better educated. Many more of 
them are married, they live a different lifestyle. And then, of 
course, once we send them out on a ship or on a deployment with 
an air squad or on a submarine, they live in a very, very close 
environment where they are controlled and they are watched in 
their work environment, and there is no alcohol involved in 
that.
    So, you know, over the course of that time in that 
environment, you are going to see a whole lot less of these 
unwanted sexual contact data, and I am confident of that. The 
midshipmen still are in an academic setting, even though they 
are in a very controlled academic setting, and that is not to 
make a pass for, you know, the type of lifestyle they have at 
the Naval Academy, but it is just a different environment, as 
you recall, living there.
    But I think we can still look for best practices that come 
from the fleet and see if they can apply to what we do at the 
Naval Academy.
    Mrs. Luria. Well, thank you.
    And so out of all the comments that were made today, there 
were a couple things that, you know, popped out, because I 
think we are all scratching our head, these are not the results 
that we wanted to hear. And something that did come up in the 
earlier testimony was that, you know, the Victims' Legal 
Counsels, for example, didn't have a lot of experience in 
dealing with victims. So that is just a point of maybe an area 
that we could look at what type of training they get.
    And then, you know, on the side of medical professionals 
and the faith community, with how they fit into the whole 
picture of developing midshipmen morally, mentally, and 
physically, that they tie into that picture with, you know, 
dealing with the victims.
    And, you know, I think my frustration as a commanding 
officer in the fleet when I had sailors who dealt with this was 
that I felt that the reticence of people to report was because 
they thought nothing was going to ever happen. And the nothing 
that was ever going to happen was not because the chain of 
command didn't take it seriously, because we took it very 
seriously, but it was more so that the process took so long for 
anything to happen, it moved at a glacial speed.
    And like you said, Dr. Van Winkle, you know, people are 
worried about this in their second class midshipmen, so junior 
year following through with them to the fleet. And so I don't 
know how to crack that nut of, you know, a more expeditious 
process to make sure that, you know, it is being handled, but 
people know it is being handled, and, you know, what the 
results are because----
    You know, Admiral Carter, as we spoke the other day, you 
said accountability was the biggest issue. But if someone 
reports something and nothing happens for 18 months or 2 years, 
that is hard to draw the accountability back, because people's 
memories are actually short. So I don't know if anyone has any 
comments on that topic.
    Admiral Carter. I will just say one brief thing. The Victim 
Legal Counsel was brought on during my tenure here at the Naval 
Academy. I thought it actually would change and really make a 
difference for those that had stepped forward. And quite 
honestly, I did not see more female victims actually go through 
with the investigation or go through with the preliminary 
hearing office. I didn't see that change.
    That Victim Legal Counsel does not work for me. They are 
independently assigned to the Naval Academy. They are 
permanent. I found them to be very experienced, it is not their 
first legal job. And they do meet with their survivors or 
victims in person.
    Mrs. Luria. Okay. Well, thank you for sharing that. That 
was different than what was mentioned earlier.
    I yield back my time. Thank you.
    Ms. Speier. Ms. Cheney.
    Ms. Cheney. Thank you very much, Madam Chairwoman. I wanted 
to--and I appreciate that the chairwoman read or submitted for 
the record the entire email from Colonel Campbell, but I wanted 
to mention a couple of things that were not read.
    In the first paragraph of the email, the colonel says that 
the SAGR [Service Academy Gender Relations] report is, quote, 
exceptionally important. In the second paragraph he says, 
sexual assault and gender relations, the report is absolutely a 
command priority. In the third paragraph, he says, don't for a 
minute think we believe the class crest is more important than 
sexual assault. And the paragraph that the chairwoman did read 
has absolutely nothing to do with victim anonymity. And I think 
it is very important that the record reflect that that is not a 
conversation at all about victim anonymity.
    And I think, in fact, victim anonymity is crucial, and I 
think that it is very important that we not look towards 
increasing the number of unrestricted reports as our only 
measure of success here. I think, as Dr. Van Winkle mentioned, 
there are a number of reasons why people don't report, a number 
of reasons why they want to be able to report in a restricted 
fashion, including that they don't want to have this follow 
them for their life. They don't want to be known as a victim. 
And I think that is very important. And I think that we need to 
keep in mind that compassion for survivors and for victims, and 
not look as though we are forcing everyone into a public 
reporting setting.
    Secondly, I would say that while it is true that the report 
shows that alcohol was a factor in at least half of these 
incidents that were reported, that is a huge issue. And I think 
it would be reckless and irresponsible for us if we did not 
address the issue of alcohol. It is not a silver bullet, it is 
not a panacea, but when we have something that we know is 
present in approximately half, in some cases a little over half 
of these incidents that we know of, we have got to address it.
    And so I would like to ask each of the superintendents if 
you could talk specifically about the programs that you have in 
place, the programs that you think you need to put in place, at 
each of the academies to deal with this issue of alcohol abuse.
    General Williams. Congresswoman, we have a long way to go 
in this space. We have done everything from a cadet who has 
created--or had some sort of misconduct and alcohol. We put him 
in the alcohol substance abuse program. It was mentioned 
earlier about the leader development program, if a cadet 
commits some act in this space, he gets an F. He gets an 
academic grade, F, it is part of his GPA [grade point average]. 
So those are sort of one end of the spectrum.
    The other end of the spectrum is every week they work this, 
our TAC [company tactical officer] and TAC-NCOs [tactical non-
commissioned officers] work this really, really hard. Before 
special events, before every weekend, they do briefings with 
the cadets. But I am not satisfied where we are in terms of--I 
am having my commandant look at all of our policies in term of 
how long. We have a number of places on West Point where 
cadets, if they are of age, they can't be underage, if they are 
of age, where they can drink alcohol.
    I am relooking at all our current policies. And so we are 
looking at doing some changes in that respect. So we are doing 
a lot right now, but we are not doing enough, and I am 
relooking the whole thing.
    Ms. Cheney. Thank you.
    Admiral Carter.
    Admiral Carter. Ma'am, I started to talk about some of our 
programs, such as the Guardian Angel program, the Midnight 
Teachable Moments, the task force that we stood up. I would 
also tell you that accountability at this lower level of 
problem before it turns into a potential assault. When you take 
away the alcohol piece, as I said, won't take them all away, 
but for us we think it has a significant part. We are 
redefining what those are.
    So, for example, if you get a DUI [driving under the 
influence] at the Naval Academy, you will be separated from the 
Naval Academy. Two alcohol-related incidents, whether they 
happened plebe year and senior year, you will also be 
dismissed. A failure from an alcohol treatment program will 
also be cause for dismissal. A higher penalty for underage 
drinking, even though it is not a zero-defect mentality, it is 
one that we have to continue to go after.
    And as we are hearing--as you are hearing us today, we all 
meet and talk about our best practices and how we are doing it, 
so that we can get to some more common themes so that we are 
all doing it about the same way.
    Ms. Cheney. Thank you.
    General Silveria.
    General Silveria. Yes, ma'am. After I arrived, I didn't 
like the way that a lot of the alcohol was available and the 
way that it was handled within the cadet wing, and so I made a 
number of changes last year in the availability, how it was 
served. And I made a number of changes increasing supervision, 
both at events inside the academy and outside the academy with 
supervision.
    The other thing that we have done is we have created a 
training program for our third classmen, our sophomores, 
because that is the age when they become of age, for most of 
them. So we have created a training program that focuses on 
prevention of alcohol-related incidents. And all of the 
commanders have availability, and they use it. If they get a 
risk factor where they see that somebody has used it, they can 
put someone in that prevention program, whether they are a 
three-degree or not. So we are training and then the increased 
supervision.
    Ms. Cheney. Thank you very much. My time has expired.
    Ms. Speier. All right. That brings us to the end of the 
hearing.
    Let me thank you very much for your participation today. I 
really believe that you want to do the right thing. I also 
worry that we have not found the formula that is going to 
reduce the numbers. They can't keep going up.
    And, Dr. Van Winkle, I am very heartened to hear you say 
that we are not going to be able to train ourselves out of this 
problem. We have got to recognize that there is something more 
that needs to be done.
    I do know, and in talking to a couple of the 
superintendents, that you have also realized that once there is 
a conviction or once someone is identified, some of these 
cadets have turned into predators, where it wasn't just a once, 
it was to a number of cadets that they had either sexually 
harassed or sexually assaulted. So it is a very serious 
problem, and these are our leaders for the next generation. We 
have a responsibility.
    So thank you for being here. Thank you for your commitment. 
And I am hopeful that we will make a number of trips to the 
academies over the course of the next year to work with you.
    With that, we will stand adjourned.
    [Whereupon, at 6:13 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                           February 13, 2019

     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 13, 2019

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 13, 2019

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 13, 2019

=======================================================================

      

             RESPONSE TO QUESTIONS SUBMITTED BY DR. ABRAHAM

    Dr. Van Winkle. This is a very complex issue; however, the research 
available to date is summarized as follows: Research with civilians 
shows a significant minority of men perpetrate sexual violence. Most 
men who use coercive tactics to obtain sex use those tactics repeatedly 
over time; however, most rape perpetration occurs over a more limited 
time frame. Hundreds of studies have examined risk factors for sexual 
violence perpetration. Risk factors are behaviors, experiences, 
attitudes, or cultural norms that are statistically associated with 
self-reported sexual violence in research studies. Consistently 
supported factors include: history of experiencing child abuse, a peer 
group that supports forced sex, peer pressure to engage in sexual 
activity, relationship conflict, sexual risk behaviors (early 
initiation of sex, sexual promiscuity, casual sex), hostile views of 
women, and attitudes supporting the use of violence. Studies have found 
that a combination of risk factors expressed over time is more 
predictive of sexual violence than single risk factors. Many risk 
factors can be modified or mitigated, which facilitates reduction of 
sexual violence. Multiple military studies have found that military 
sexual violence perpetrators reflect similar risk factors and offending 
patterns as civilian perpetrators. Similarities between sexual violence 
perpetrated by military members and civilians suggests that civilian 
research can be used to inform prevention approaches implemented in 
military settings. The Department will continue to use this literature 
to guide prevention planning and execution.   [See page 43.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 13, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. In at least 2016, the Academies and DOD considered 
replacing the measure of unwanted sexual contact used in the Academy 
survey with the UCMJ-linked measurement used in the active force 
workplace and gender relations survey. The Academies and DOD reportedly 
pushed back against adopting the active force measure. Why did the 
Academies push back against the active force measurement? Why is the 
unwanted sexual contact measure preferable?
    Dr. Van Winkle. The Department determined that the Unwanted Sexual 
Contact (USC) measure was a better fit for victim privacy and survey 
administration considerations at the Academies. To better align with 
language describing the sexual assault crimes defined in Article 120 of 
the Uniform Code of Military Justice--and as part of its review and 
administration of the Department's active duty sexual assault 
prevalence survey in 2014--the RAND Corporation compared responses to 
the existing USC measure to responses to the new sexual assault measure 
it designed. RAND's comparison found no statistically significant 
difference in how either measure estimated past-year prevalence of 
sexual assault at the top-line. However, RAND's measure offered certain 
advantages in conducting follow-on analysis of responses. In 2015, the 
Department worked with the Academies to assess whether RAND's new 
measure would be appropriate for administration of the Service Academy 
Gender Relations (SAGR) survey. This assessment involved review of the 
measure by Academy victim assistance staff and a small group of 
selected cadets and midshipmen. Feedback obtained through this process 
indicated that the new RAND measure was more explicit in language and 
took much longer to complete than the USC measure. These observations 
made use of the new RAND measure on the SAGR survey problematic in two 
ways: 1. Administration time. The SAGR survey is administered in person 
in a room with several hundred cadets and midshipmen at once. This is 
done to keep response rates in the 70 to 80 percent range, as computer 
administration has been associated with markedly lower response rates. 
Students who may have experienced a past-year sexual assault would 
spend a considerably longer time taking a survey with the RAND sexual 
assault measure survey than a survey with the USC measure. The 
Department concluded that increased administration time would likely 
expose students taking a longer time with the survey to unwanted 
scrutiny and/or assumptions about whether they were a victim of sexual 
assault, which ultimately might impact a student's willingness to 
disclose victimization on the survey. 2. Administration method. The 
SAGR Survey is administered via paper and pencil rather than the 
computer administration employed in the active and reserve components. 
Again, by employing the in-person method, the Department has achieved 
high response rates from cadets and midshipman on the SAGR Survey. 
Active duty and reserve component members completing the survey via 
computer can take a break and come back to it should the experience of 
answering the RAND measure's very detailed questions become stressful 
or troubling. However, similar breaks are not possible given the in-
person administration employed with the SAGR survey. Given the 
anonymity of responses, there is no way for a student to take a break, 
come back later, and finish the survey. The Department subsequently 
asked the Academy Superintendents for their input on which measure the 
SAGR should use to estimate past-year prevalence of sexual assault. The 
Academy Superintendents unanimously requested the SAGR continue to 
employ the USC measure to address not only survey administration time 
and method concerns, but also consistency of their prevalence trend 
information since 2006. Given this input, the DOD Sexual Assault 
Prevention and Response Office and the Office of People Analytics 
decided to keep the USC measure as the means for estimating past-year 
prevalence of sexual assault on the SAGR Survey. The academy survey 
continues to utilize the shorter unwanted sexual contact measure with 
the scientific assurance that both measures yield similar, accurate 
estimates of sexual assault prevalence.
    Ms. Speier. In at least 2016, the Academies and DOD considered 
replacing the measure of unwanted sexual contact used in the Academy 
survey with the UCMJ-linked measurement used in the active force 
workplace and gender relations survey. The Academies and DOD reportedly 
pushed back against adopting the active force measure. Why did the 
Academies push back against the active force measurement? Why is the 
unwanted sexual contact measure preferable?
    General Williams. USMA does not have record of ``pushing back'' 
against the measures in the DOD survey. We understand these questions 
mirror language from the UCMJ and we have no issues with them as 
presented. Further, we do not have an opinion at this time if unwanted 
sexual contact is the more preferable measure. As this is a DOD wide 
policy, we believe it would be more appropriate for OSD to respond to 
this question.
    Ms. Speier. In at least 2016, the Academies and DOD considered 
replacing the measure of unwanted sexual contact used in the Academy 
survey with the UCMJ-linked measurement used in the active force 
workplace and gender relations survey. The Academies and DOD reportedly 
pushed back against adopting the active force measure. Why did the 
Academies push back against the active force measurement? Why is the 
unwanted sexual contact measure preferable?
    Admiral Carter. USNA did not push back on the language or standards 
used to measure USC in the survey. However, in considering any future 
changes, it is important to consider consistency in language and 
standards over a long period of time to better establish reliable 
trends and keep historical data relevant to contemporary data.
    Ms. Speier. In at least 2016, the Academies and DOD considered 
replacing the measure of unwanted sexual contact used in the Academy 
survey with the UCMJ-linked measurement used in the active force 
workplace and gender relations survey. The Academies and DOD reportedly 
pushed back against adopting the active force measure. Why did the 
Academies push back against the active force measurement? Why is the 
unwanted sexual contact measure preferable?
    General Silveria. The Service Academy Gender Relations (SAGR) 
survey is conducted every even numbered year at all the service 
academies and reported with the release of the SH&V report. The SAGR 
reveals data specific to sexual harassment and sexual assault at each 
of the Military Service Academies including the U.S Air Force Academy 
(USAFA). This survey has been conducted for over a decade which allows 
for analysis and tracking of trends and patterns. During the previous 
discussions regarding the questions related to ``Unwanted Sexual 
Contact,'' the justification for not changing the definitions to match 
the active duty force instrument was that it would adversely impact the 
ability to make longitudinal comparisons. In other words, changing the 
questions would prevent the services and Congress from being able to 
accurately compare future data with past data. Certainly, there are 
valid arguments to be made regarding the use of an active force measure 
that allows more accurate comparisons be made between the Academies and 
active duty force; however, at the time of the discussions, it was 
viewed as more beneficial to be able to make longitudinal comparisons 
amongst the Service Academies. As such, this is one of the longest 
existing surveys on a college campus of its kind which can allow for 
data driven strategies and operations.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. ESCOBAR
    Ms. Escobar. Dr. Van Winkle, what would you say contributed to the 
nearly 50% increase in sexual harassment and sexual assault detailed in 
the 2017-2018 Annual Report on Sexual Harassment and Violence at the 
Military Service Academies?
    Dr. Van Winkle. Survey results capture the experience of large 
numbers of people with great scientific reliability and validity, but 
they cannot isolate the causes behind those experiences or perceptions. 
That said, the data indicate that academy approaches have not prevented 
disrespectful, interpersonal conduct between cadets and midshipmen, 
which is a driving force behind challenges in sustaining progress. 
First, estimated rates of sexual harassment maintain at consistently 
high rates, with 51 percent of academy women and 16 percent of academy 
men indicating a past-year experience in APY 2017-2018. Second, marks 
for confidence in the efforts of cadets and midshipmen peer leadership 
continue to hover at relatively low rates. Finally, rates of alcohol 
use among students continue to be a concern: More than half of sexual 
assault incidents involved alcohol, and about 15 percent of women and 
32 percent of men acknowledged heavy drinking in the past year. 
However, the survey also found that most cadets and midshipmen believed 
that Academy leadership make honest and reasonable efforts to stop 
sexual assault and harassment. While the Department acknowledges the 
high marks in Academy leadership, we recognize that this important 
achievement is not by itself sufficient to combat these crimes.
    To address unsatisfactory results, each of the Military Service 
Academies have developed a plan of action that focuses on four key 
lines of effort to address sexual assault and sexual harassment: 
reinvigorating prevention efforts, improving sexual assault and 
harassment reporting, enhancing a culture of respect, and promoting a 
disciplined force. These plans will proactively engage with cadets and 
midshipmen, especially at the student leadership level, and include:
    <bullet>  Implementing policies, programs, and practices that 
target and reduce sexual harassment and other forms of misconduct 
between peers.
    <bullet>  Focusing initiatives on improving cadet and midshipmen 
leadership (e.g., selection criteria, how we train our student leaders 
on sexual assault and harassment, how we hold student leaders 
accountable).
    In conjunction with these efforts, the Secretaries of the Military 
Departments hosted a national university and college and US Academies 
summit in April 2019 at the Naval Academy in Annapolis, Md., focused on 
preventing sexual assault and sexual harassment.
    Ms. Escobar. Dr. Van Winkle, in your opinion, what type of support 
or resources do military service academies need from Congress to ensure 
that students feel comfortable reporting sexual assault and harassment?
    Dr. Van Winkle. The Military Service Academies (MSA) have developed 
programs to provide students a professional response to all reported 
allegations of sexual assault and sexual harassment. Upon making a 
report of sexual assault, students may obtain victim assistance and 
advocacy, healthcare, spiritual support, and confidential legal 
counsel. The Department requires that Service leadership provide fully 
resourced programs and oversight to ensure sexual assault prevention 
and response programs function as designed. Likewise, students 
reporting sexual harassment have a variety of services and support 
options available to help them resolve complaints informally or 
formally with direct command investigation and action. Should 
legislative barriers arise, we would submit proposed legislative 
remedies through the Department's legislative proposal process.
    Ms. Escobar. Dr. Van Winkle, are victims aware of the variety of 
support services available to them? Are there barriers in getting this 
information out that Congress should be aware of?
    Dr. Van Winkle. Students at each academy receive annual, mandatory 
sexual assault training where they learn of the resources available to 
them should they ever experience a sexual assault. During this 
training, the academies introduce students to the sexual assault 
response coordinator (SARC) as the single point of contact who can 
provide information about the wide variety of resources available to 
students who experience a sexual assault incident. In the event a 
student experiences a sexual assault and files a report, the SARC 
explains the options of both Restricted and Unrestricted reporting, as 
well as the complete range of support services that are available to 
the victim. DOD surveys indicate that there is a relatively high level 
of fluency in the basic provisions of the Sexual Assault Prevention and 
Response Program. There are no systemic barriers within the Department 
to providing the sexual assault training and access to support 
services.
    Ms. Escobar. To the superintendents, what are the unique 
circumstances of each academy that may have contributed to the dramatic 
increase in sexual harassment and sexual assault?
    General Williams. Based on the available data, USMA is unable to 
identify any unique circumstances which would explain the increase in 
prevalence or reporting at West Point during APY 17-18. We have 
maintained vigilance over this and did not expect these results. We 
have in fact noticed that the measures we took that were different than 
previous years may have contributed to victim willingness to 
anonymously report more incidents on the SAGR and for more victims to 
report their incidents to SHARP personnel. Some of these actions 
include (1) a deliberate focus on education to ensure our Cadets 
understood the components of the crime itself, (2) creating the 
conditions for victims to believe their voices mattered and needed to 
be heard, and (3) to create safety and support for those willing to 
come forward. In a very deliberate and focused manner, we examined the 
following areas within our training and education program:
    --The crime of sexual assault as it occurs in college settings
    --Exploring the nuances of consent and the impact of alcohol in 
relationship decision making
    --Presenting information on male sexual assault, to destigmatize 
this issue and create a common language and support to empower male 
victims to report
    --Breaking down the impact of victim blaming, to increase empathy 
and support for victims
    These actions are a few of the programmatic efforts and constitute 
some measure of our continued efforts to create an integrated and 
synchronized effort to create a culture of respect among our community.
    Ms. Escobar. To the superintendents, what are the unique 
circumstances of each academy that may have contributed to the dramatic 
increase in sexual harassment and sexual assault?
    Admiral Carter. While the United States Naval Academy did not 
experience dramatic increases in sexual harassment and sexual assault 
in the most recent survey, the survey demonstrates we have more work to 
do. We are committed to eliminating sexual assault and sexual 
harassment at the Naval Academy and we will continue to do all we can 
to achieve that goal. USNA is unique among the Military Service 
Academies in that it is physically located in a busy town with many 
establishments serving alcohol and promoting a much more relaxed social 
atmosphere than the professional atmosphere of our campus. The 
immediate vicinity and easy access presents leadership challenges 
different from West Point or Colorado Springs where there is a greater 
distance and less interaction with immediate outside influences. 
Historically, most of our incidents of USC and harassment occur off 
campus and involve the use of alcohol.
    Ms. Escobar. To the superintendents, what are the unique 
circumstances of each academy that may have contributed to the dramatic 
increase in sexual harassment and sexual assault?
    General Silveria. When analyzing estimated sexual assault 
prevalence data across the last decade, similar patterns emerge between 
the service academies. In 2018 all academies had a significant increase 
in estimated prevalence of sexual assault (women at US Naval Academy 
(USNA) and USAFA and men at USNA). And in 2014 a significant drop in 
estimated prevalence occurred across the three academies. When similar 
patterns occur between institutions, particularly those that are 
separated geographically and culturally, there likely other factors 
that are impacting the data collected. We cannot rule out social 
factors that go beyond each installation's gates. Numerous factors 
including high profile military and civilian cases, leadership 
turnover, and socio-cultural differences can influence estimated 
prevalence and reporting data and impact our cadets' willingness to 
exercise their voice, even on anonymous surveys. Examining general 
trends over time between the academies supports the idea that something 
larger than just what is occurring on the academy grounds may impact 
the estimated sexual assault prevalence data. This is not to excuse us 
from working on the solution or being responsible for what occurs on 
our grounds, but does challenge us to open the aperture of what 
prevention looks like. Determining the root cause of behavior is 
challenging. We know that the specific population of college students 
has a higher estimated rate of sexual assault. This year we saw an 
increase in the instances of alcohol use by either or both the offender 
and victim. Alcohol use and misuse is another factor within this aged 
population that impacts estimated prevalence of sexual assault. USAFA 
saw an increase in the number of cadets who enter into the academy 
having already experienced sexual assault in their past. There is a 
higher risk of re-victimization by those who have a past experience of 
victimization. Additionally, cultural indicators such as victim blaming 
beliefs increased this year according to the data from the SAGR survey. 
These data points, though not specifically unique to USAFA, may all 
impact the estimated prevalence of harassment and assault at USAFA. 
Further analysis is needed and programs based on such analysis are 
required to impact estimated rates of prevalence and related issues at 
USAFA.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BERGMAN
    Mr. Bergman. Mr. Christensen, in the hearing, you recounted a 
conversation you had with the Vice Commandant of Cadets at the Air 
Force Academy and that the Vice Commandant said he didn't have time to 
meet with victims of sexual assault. I have since been made aware that 
that particular conversation did not happen in the way you have 
suggested. Could you please clarify your statement?
    Colonel Christensen. You have asked about a conversation I 
referenced during my testimony with the Vice Commandant of Cadets. 
Contrary to the inference in the QFR, my testimony accurately reflected 
my conversation. The conversation occurred as prelude to the Vice 
Commandant meeting with my client in a hearing that could lead to her 
being removed from the Academy. Based on my conversation with my 
client, as well as many other survivors, I was and am concerned that 
commanders rarely speak with survivors in other than adversarial 
settings. I believe this colors their understanding of the impact of 
trauma on victims. Very early during my meeting, I asked the Vice 
Commandant if he had ever met with a victim in a non-adversarial 
setting. He responded, as I testified, he had 4000 cadets and did not 
have time to do that. After my testimony, the Vice Cadet reached out to 
me to discuss my testimony, and I agreed to talk with him. After our 
conversation I told him I would write a letter to the Chairwoman and 
Ranking member. The Vice Commandant did not ask me to do this. I 
drafted the letter and sent it to the Vice Commandant to see if he 
thought it was fair. He agreed that it was. As I said in my letter, our 
conversation was very productive and professional. We left the 
conversation in a much better place than our previous meeting. We did 
not reach an agreement on the words the Vice Commandant used; however, 
my prior testimony accurately reflects my memory of the exchange, and I 
stand by it. I did not send the letter to correct or diminish the words 
I used in my testimony. Instead, I sent the letter because after our 
most recent conversation I did not believe it was the Vice Commandant's 
intent to indicate he did not have time to meet with victims. After 
this conversation, I believed it was necessary to bring this to the 
attention of the subcommittee to provide context.

                                  [all]
</pre></body></html>
